<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 2021</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




   STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                                  2021

_______________________________________________________________________
_______________________________________________________________________


                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SIXTEENTH CONGRESS

                              SECOND SESSION

                               _____________

                SUBCOMMITTEE ON STATE, FOREIGN OPERATIONS,
                          AND RELATED PROGRAMS

                   NITA M. LOWEY, New York, Chairwoman

  BARBARA LEE, California
  GRACE MENG, New York
  DAVID E. PRICE, North Carolina
  LOIS FRANKEL, Florida
  NORMA J. TORRES, California

  HAROLD ROGERS, Kentucky
  JEFF FORTENBERRY, Nebraska
  MARTHA ROBY, Alabama

  NOTE: Under committee rules, Mrs. Lowey, as chairwoman of the full 
committee, and Ms. Granger, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

     Steve Marchese, Craig Higgins, Erin Kolodjeski, Dean Koulouris,
       Jason Wheelock, Jean Kwon, Marin Stein, and Clelia Alvarado
                            Subcommittee Staff

                               _____________

                                  PART 4

  MEMBERS' DAY...................................................1                       
                                        
  PUBLIC WITNESS DAY............................................83
                                        


                  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                  
                  
                             _____________

                  
                  
          Printed for the use of the Committee on Appropriations



                    U.S. GOVERNMENT PUBLISHING OFFICE

  43-524                    WASHINGTON : 2021



                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                  NITA M. LOWEY, New York, Chairwoman


  MARCY KAPTUR, Ohio
  PETER J. VISCLOSKY, Indiana
  JOSE E. SERRANO, New York
  ROSA L. DeLAURO, Connecticut
  DAVID E. PRICE, North Carolina
  LUCILLE ROYBAL-ALLARD, California
  SANFORD D. BISHOP, Jr., Georgia
  BARBARA LEE, California
  BETTY McCOLLUM, Minnesota
  TIM RYAN, Ohio
  C. A. DUTCH RUPPERSBERGER, Maryland
  DEBBIE WASSERMAN SCHULTZ, Florida
  HENRY CUELLAR, Texas
  CHELLIE PINGREE, Maine
  MIKE QUIGLEY, Illinois
  DEREK KILMER, Washington
  MATT CARTWRIGHT, Pennsylvania
  GRACE MENG, New York
  MARK POCAN, Wisconsin
  KATHERINE M. CLARK, Massachusetts
  PETE AGUILAR, California
  LOIS FRANKEL, Florida
  CHERI BUSTOS, Illinois
  BONNIE WATSON COLEMAN, New Jersey
  BRENDA L. LAWRENCE, Michigan
  NORMA J. TORRES, California
  CHARLIE CRIST, Florida
  ANN KIRKPATRICK, Arizona
  ED CASE, Hawaii

  KAY GRANGER, Texas
  HAROLD ROGERS, Kentucky
  ROBERT B. ADERHOLT, Alabama
  MICHAEL K. SIMPSON, Idaho
  JOHN R. CARTER, Texas
  KEN CALVERT, California
  TOM COLE, Oklahoma
  MARIO DIAZ-BALART, Florida
  TOM GRAVES, Georgia
  STEVE WOMACK, Arkansas
  JEFF FORTENBERRY, Nebraska
  CHUCK FLEISCHMANN, Tennessee
  JAIME HERRERA BEUTLER, Washington
  DAVID P. JOYCE, Ohio
  ANDY HARRIS, Maryland
  MARTHA ROBY, Alabama
  MARK E. AMODEI, Nevada
  CHRIS STEWART, Utah
  STEVEN M. PALAZZO, Mississippi
  DAN NEWHOUSE, Washington
  JOHN R. MOOLENAAR, Michigan
  JOHN H. RUTHERFORD, Florida
  WILL HURD, Texas

                 Shalanda Young, Clerk and Staff Director

                                   (ii)



 
STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 2021

                              ----------                              

                                        Thursday, February 27, 2020

                              MEMBERS' DAY

             OPENING STATEMENT BY CHAIRWOMAN LOWEY

    The Chairwoman [presiding]. Good afternoon. The 
Subcommittee on State, Foreign Operations, and Related Programs 
will come to order.
    I welcome our distinguished colleagues. It is a pleasure to 
have you join us for our first hearing of the year. We begin 
crafting the fiscal year 2021 appropriations bill, your 
testimony will be integral to our process. The democracy, 
development, diplomacy, humanitarian, and security assistance 
programs funding in this bill are critical to maintaining 
United States' global leadership, protecting our national 
security, and promoting economic growth. Yet since coming to 
office, the President has repeatedly proposed cutting these 
programs. Fortunately, Congress has consistently and 
resoundingly rejected the administration's cuts.
    For fiscal year 2021, the President's request included a 20 
percent cut that would decimate United States diplomatic 
development and humanitarian efforts. A bipartisan majority in 
Congress has rejected shortsighted cuts to overseas programs, 
and I am confident we will do again. That is why I appreciate 
each of you who are, and those who are coming, making the time 
to testify and draw our attention to these critical programs, 
the very programs that protect our national security and uphold 
our foreign policy priorities. So thank you for coming. I look 
forward to hearing about your priorities in the State and 
Foreign Operations bill.
    And at this point, I would like to turn to my ranking 
member, Mr. Rogers, for any comments he may have.

           OPENING STATEMENT BY RANKING MEMBER ROGERS

    Mr. Rogers. Thank you, Madam Chair, for convening this 
hearing so we can hear from our colleagues on their fiscal year 
2021 priorities in the State, Foreign Operations bill. In the 
weeks ahead, we will hear from the administration's senior 
leadership on the details of the President's budget request for 
State, Foreign Operations, including the impact of the so-
called proposed 19 percent cut. Once we have heard from all the 
witnesses, I look forward to working with you, Madam Chair, on 
a bill that provides more realistic funding levels in support 
of U.S. soft power that advances our national security.
    Many important programs in the bill. I am pleased to get to 
hear from members who have wishes to include in the bill. We 
thank them for their participation, and we look forward to 
hearing from them. I yield back.
    The Chairwoman. Thank you very much, and I am very pleased 
to welcome Representative Espaillat of New York. He is a member 
of the Foreign Affairs Committee. Thank you for joining us 
today, and we will be happy to place your full testimony into 
the record. If you would be kind enough to summarize your 
written statement. I want to be sure we have enough time to get 
any questions. Please proceed.

STATEMENT BY HON. ADRIANO DE JESUS ESPAILLAT, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF NEW YORK

    Mr. Espaillat. Thank you, Madam Chair. Thank you, Madam 
Chair and Ranking Member. Thank you for allowing me to testify 
today in this hearing and lay out my priorities as they relate 
to the State Department and related agencies.
    As someone that was born in the Caribbean and as a member 
of the Western Hemisphere Subcommittee of the Foreign Affairs 
Committee, I know that maintaining our foreign aid and 
diplomatic commitments show that we are well positioned in that 
region. That region happens to be our Third World. I would like 
to begin by discussing our efforts to combat crime and illicit 
trafficking in the Caribbean, and thank the committee for the 
$2 million increase in the Caribbean Basin Security Initiative 
received last year, but I am here to share why the need is even 
greater.
    The Caribbean is particularly susceptible to the drug trade 
as a midway point for narcotics produced in South America on 
their way to the United States, where unfortunately, the demand 
is very high. Stopping narcotics from coming through the 
Caribbean is important not only for combating the drug problem 
in the U.S., but for promoting stability in Caribbean 
countries. According to a status report of the State 
Department's U.S. Strategy for Engagement in the Caribbean, 
released in July 2019, that report states that the Caribbean 
has some of the highest murder rates in the world. Rising crime 
and endemic corruption threaten government's ability to provide 
security and good governance.
    With continued efforts to combat the drug trade in Central 
America and Mexico, the lack of comparable investment in the 
Caribbean makes the already susceptible region a flashpoint for 
the smuggling of Colombian cocaine, which has quadrupled its 
production since 2012. The CBSI has been instrumental in 
providing needed help to combat the drug trade, work to lower 
crime and violence rates, and stand against corruption. 
However, CBSI's funding level is insufficient to meet the 
continuing and growing need. As such, I urge this committee to 
provide at least $80 million for the Caribbean Basin Security 
Initiative for fiscal year 2021.
    I would also like to discuss the global and substantial 
challenge of our time, climate change. We see the effects every 
day from pollution in the Harlem River that causes asthma, to 
drought in the Northern Triangle that leads to insecurity and 
migration. Developing countries, which contribute the least to 
climate change, but often bear the greatest burden, need the 
help to build capacity and mitigate and adapt to climate 
change. Their share of the burden greatly outweighs their 
contribution to the problem, whereas developed countries 
contribute immensely to climate change, but bear less of a 
burden. This is a global environmental injustice.
    The Green Climate Fund is a means to help developing 
countries reach their full mitigating potential and combat 
climate change. The U.S. has committed $3 billion to the fund, 
but has only contributed $1 billion. There is no greater need 
than to combat climate change, and the committee at least begin 
[Audio malfunction in hearing room] against America's 
commitment to leadership goals in global climate change. As 
such, I urge the committee to provide $750 million, the last 
ask under the past administration, to the Green Climate Fund.
    I thank you for hearing my concerns and priorities. I have 
submitted additional testimony in writing to the committee, 
which I hope you will also be able to take into consideration. 
Thank you.
    The Chairwoman. Well, thank you for your very thoughtful 
testimony. Any questions?
    [No response.]
    The Chairwoman. Thank you.
    Mr. Espaillat. Thank you so much.
    The Chairwoman. Have a good rest of the day. Representative 
McGovern of Massachusetts, the chairman of the Rules Committee, 
I am happy you are able to join us. And, of course, you can put 
your full testimony into the record, and if you would be kind 
enough to summarize your written statement. I want to make sure 
we have enough time to get to any questions.
    [The prepared statement of Mr. Espaillat follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    STATEMENT BY HON. JAMES P. MCGOVERN, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. McGovern. Madam Chair, Ranking Member Rogers. Thank you 
to Norma Torres, my colleague on the Rules Committee as well. 
Thanks for having me here.
    I want to begin by touching on a couple of items included 
in the fiscal year 2020 bill. I want to thank you for 
designating $1 million to support CONABUSQUEDA, which is an 
organization that I helped establish that is dedicated to the 
search for the disappeared from the Salvadoran civil war. This 
affects many Salvadoran American families as well the people of 
El Salvador. It is an important effort to bring to closure 
their suffering. They don't know the whereabouts of missing 
family members, and to help heal the wounds of that war.
    I also want to thank you for the strong language directing 
the State Department to coordinate across all U.S. agencies the 
release of all relevant files or documents related to the 1981 
El Mozote massacre in El Salvador. I visited that site. Over 
1,000 people were massacred, mostly women and children. Some 
children were literally infants, and they were massacred by 
Salvadoran soldiers and buried in shallow graves. The 
Salvadoran presiding judge in the El Mozote case, Jorge Guzman, 
sent a letter to Secretary Pompeo expressing gratitude for the 
initiative that Congress put forward. That letter was hand 
delivered to the Western Hemisphere Affairs Bureau the first 
week of February. And in his letter, Judge Guzman noted what 
types of documents and information would be most useful to his 
review of the case, and the U.S. agencies where such files 
might be located.
    Now, I respectfully ask the committee to follow up and 
ensure that the funds for CONABUSQUEDA to be allocated in a 
timely manner as well. I also ask that the committee be 
persistent and uncompromising in making sure that the State 
Department complies fully and expeditiously with your directive 
on the El Mozote case. Resolving this case would be a 
tremendous step in breaking impunity and advancing justice in 
El Salvador. I should just also say, I think we have a special 
obligation on this case because the soldiers who are 
responsible for this massacre, the battalion, the Atlacatl 
battalion, was actually formed by the U.S., and we trained many 
of these soldiers, and we certainly armed them.
    I am also grateful for the one-time increase of $250,000 to 
upgrade the Congressional Executive Commission on China 
Prisoner Database, which hasn't been updated since 2004. 
Currently, the CECC, which I am the chair of, is working with 
contractors to create a new political prisoner database, 
preserve and transfer existing data, and support and maintain 
the system in both English and Chinese. For fiscal year 2021, I 
am requesting the traditional level of $2 million for the CECC.
    My priorities for fiscal year 2021 are similar to last 
year: robust funding for the Global Food Security Programs, 
including increasing to $200 million the nutrition account 
under the Global Health Programs; maintaining current levels 
for Colombia, and the final bill did a very fine job of 
targeting and designating funds for Colombia last year. In 
fiscal year 2021, we need to continue to focus on the full 
implementation of the peace accords, promoting human rights, 
protecting local social leaders, and advancing sustainable 
community-based rural development, especially in those areas 
most affected by nearly 60 years of war and violence.
    In Central America, USAID needs to emphasize human rights, 
rule of law, good governance, and any corruption and official 
engagement in criminal activity. Madam Chair, I am deeply 
concerned about the fate of human rights and democracy in 
Central America. I travel there often. Young people and 
families confront a violent landscape daily. They are 
threatened with death to join gangs, intersexual slavery, and 
to pay extortion. I hope that the committee would formally 
recognize that these countries struggling to overcome 
persistent violence, poverty, corruption, and institutional 
weakness provide neither safety nor security for their own 
people.
    Last year, Ranking Member Rogers expressed frustration 
about years of U.S. funding in the fight against drugs in South 
America. I agree. In Colombia, drug and criminal violence 
remains pervasive, yet over 99,000 small farmers have come 
forward in support of the peace accord and declare that they 
will stop growing illegal crops. They have literally put their 
lives on the line for peace, but they can't succeed without the 
full engagement of the Colombian government and real protection 
by the Colombian Security Forces.
    Regrettably, neither the Colombian government nor the U.S. 
have stepped up to the plate and provided the necessary support 
and resources for the rural development and counter drug 
strategy detail in the peace accord. Lack of progress and even 
setbacks to reducing illegal crops comes less from copa sino 
farmers than the lack of political will by the civilian and 
military authorities. We have seen that aerial fumigation does 
not stop the cultivation of cocoa. What is needed is the full 
and lasting presence of the state in these formerly-ungoverned 
places.
    These rural communities need to be able to count on 
democratic governance, financing for alternative livelihood, 
rule of law, schools and health clinics, and the protection of 
their local social leaders. It requires a long-term commitment, 
but should it work, the results will not only address drug 
trafficking, but expand the benefits of democracy and 
development through Colombia.
    So I end here, Madam Chair and Ranking Member Rogers, and 
thank you for your time, and welcome any questions or comments 
or whatever.
    The Chairwoman. Do you have any questions?
    Mr. Rogers. Briefly if the chair would yield. Two things. 
The current government in Colombia, I think, is having the 
right policies in place, and they are beginning to bend the 
curve on cocoa production through eradication and interdiction. 
So they have got a long ways to go, but at least, I think we 
are seeing the beginnings of the right kind of result.
    Mr. McGovern. Yes. Well, I respectfully would disagree that 
they are making the progress on the drug front that we all 
hope. They seem to be going back to the same old policies that 
were once used by the previous government under President 
Uribe, where they are going back to aerial fumigation, which 
didn't stop anything. These small farmers, what they need is 
crop substitution. They need alternatives, because if not, they 
are just going to end up finding other ways to be engaging in 
illegal activity.
    And we know what works. President Duque just canceled the 
agreement with the United Nations to continue with a program 
that has been actually very effective in getting small farmers 
out of the business of growing illegal crops. I don't know why 
he did that, but I think that is a step backwards. We know that 
works. We have the statistics to show that it works. We ought 
to embrace that. There is no shortcut to solving Colombia's 
problems, but I will be honest with you. I am not as enamored 
with the Colombian government as you just stated, so I am very 
concerned about their moving backwards, and also the increase 
in violence and the focus of attacks on social leaders. That is 
not a good thing.
    Mr. Rogers. Well, if you noticed, my words were faint 
praise for Colombia. You asked for the regular $2 million for 
the China commission. Since we started this, the role of China 
in the world economically has changed quite dramatically. Has 
that fact impacted the commission's work?
    Mr. McGovern. Well, it has. The commission's focus is on 
human rights. After we provided most favored nation status to 
China, we wanted to make sure that we didn't forget about human 
rights, and the commission has, I think, done a very, very good 
job. And right now we are concerned about what is happening 
China with regard to the treatment of Uyghurs. We have people 
who are telling the camps in which Uyghurs are being forced 
into, their treatment might constitute crimes against humanity.
    We are concerned about China's role in trying to undercut 
Hong Kong, which, by the way, would have a negative impact on 
the global economy. We want China to keep its word when they 
talked about one country, two systems. They are going in the 
wrong direction. We are concerned about China's treatment of 
Tibetans. They are trying to destroy Tibetan culture, and now 
interjecting themselves in who will be the next Dalai Lama. 
They are actually saying that the government, not the Tibetans, 
should be responsible for who is the next Dalai Lama, and 
certainly that is a violation of religious freedom, and it is 
something that we should all condemn.
    So, yes, we recognize that China is playing a bigger role 
in global affairs economically and militarily, but our job is 
to focus on human rights and make sure we don't forget that.
    Mr. Rogers. We included a quarter of a million dollars in 
the 2020 bill for an upgrade of the database on political 
prisoners. How is that coming, and when can we get a----
    Mr. McGovern. Well, as I mentioned, we are trying to get 
that. We are asking for the money to do just that, update it, 
because it is, quite frankly, not particularly usable. It is 
there, but to get through it all is a challenge. We want to 
make this user friendly so that people have access to this 
relatively easily, not just those who are monitoring human 
rights, but businesses, Members of Congress. So we have a plan 
to go forward, but we need the money to upgrade, the quality of 
the database so it is actually useful.
    Mr. Rogers. Well, that is why we gave it to you in 2020, so 
where are we?
    Mr. McGovern. We are moving in the right direction, I can 
assure you of that. I know we are interviewing firms to try to 
get it upgraded, but we are getting there.
    Mr. Rogers. That is really not much of an answer.
    Mr. McGovern. My understanding is that we haven't access to 
the money yet to do that, and that is one of the requests that 
I am making here today is to make sure we have the adequate 
resources to basically modernize the whole system. The staff is 
working very hard at compiling information. We are trying to 
make the commission more user friendly. For example, the 
commission has been around for some time now. They issue yearly 
reports that are actually very, very good. They are detailed, 
but they are thick, and my guess is that most people up here 
don't read them. We continue to issue the thick report. We are 
now issuing executive summaries so that there is no excuse to 
not read them.
    On the database, which is quite extensive, we wanted it to 
be user friendly and useful in a way where people can get 
access to it without having to hire a research assistant to 
spend a week going through it. The whole point of compiling a 
list of political prisoners is to make sure that people know 
the extent of China's brutality, and that they are imprisoning 
people for everything from being a human rights defender, to 
practicing their religion, to being a member of the LGBTQ 
community, to you name it. And so I am very proud of the work 
of the China Commission, and we are happy to sit down with your 
staff to go over the details of the database, but I assure you, 
we are doing everything we can to get it updated and upgraded.
    The Chairwoman. Thank you. Representative Spanberger of 
Virginia, member of the Foreign Affairs Committee. Thank you 
for testifying.
    Mr. McGovern. And before I leave, I just want to say to the 
chairwoman, you will probably be before the Rules Committee, 
but I am not sure I will be coming before you again in your 
current capacity, and I just want to thank you for all the 
incredible work that you have done on behalf of vulnerable 
people all over the world. And, you have an incredible legacy 
that you should be proud of, and we are certainly all proud to 
serve with you. So thank you.
    The Chairwoman. Thank you, and you have been invaluable 
partner, and I appreciate your kind words.
    Mr. McGovern. Thank you.
    [The prepared statement of Mr. McGovern follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Good afternoon.
    Ms. Spanberger. Good afternoon.
    The Chairwoman. Thank you for coming here before us, and 
you can summarize or read the whole testimony, whichever you 
prefer.

STATEMENT BY HON. ABIGAIL DAVIS SPANBERGER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF VIRGINIA

    Ms. Spanberger. Good afternoon. Thank you, Chairwoman 
Lowey, for your leadership on this subcommittee, and thank you, 
Ranking Member Rogers. I appreciate the opportunity to address 
the subcommittee or to address the State, Foreign Operations, 
and Related Programs Subcommittee today.
    The mission of this subcommittee is very important to me. 
As someone who has devoted my entire career to strengthening 
national security, I am aware of the proven benefits of 
strategic diplomacy and targeted foreign assistance. And as you 
know, the success of these efforts is wholly dependent on the 
capacity, equipment, and training of those who are going 
overseas and representing U.S. interests abroad. Our diplomats 
are public servants. These Americans have demonstrated time and 
time again that they deserve our full support.
    I was a former CIA case officer. As part of that training, 
I went through intense training at what is known as the Farm 
where we practiced event after event how to react to 
challenging circumstances, how to keep ourselves safe, how to 
keep others safe. And when I was overseas, I witnessed the 
immense dedication of my State Department counterparts who 
worked tirelessly in the pursuit of U.S. foreign policy 
objectives. The work of our diplomats is vital, and the 
dedication of our Nation's diplomatic security agents has 
protected not just our Nation's diplomats and embassies, but 
the very members of Congress in this room who have traveled 
abroad on congressional delegation trips. State Department 
officers and DSS agents around the world serve in challenging 
locations under immense pressure and with one unifying 
commitment to service.
    As a member of the House Foreign Affairs Committee, I am 
committed to advancing a smart national security strategy, and 
part of this strategy is the need to ensure that we are 
properly training our diplomatic professionals. And given the 
range of risk that these public servants face while they are 
serving abroad, that must include intense and regular training 
to counter the threats to their personal security and U.S. 
national security interests.
    In my district, Virginia's 7th District, we are proud to be 
home State Department's new Foreign Affairs Security Training 
Center, or FASTC as we call it locally. It is located at Fort 
Pickett near the town of Blackstone in Nottaway County, 
Virginia. FASTC's mission is to be the premiere training center 
for members of the U.S. foreign affairs community, who risk so 
much to serve our Nation overseas. I encourage you all to visit 
the facility. It is a remarkable new facility, and it has 
impressive capacity to train its employees.
    I would like to thank the appropriators as well as the many 
members of Congress who advocated for the creation of FASTC 
long before my arrival in Congress because following a 2008 
report to Congress, lawmakers saw the pressing need for a 
consolidated high-tech security training facility, and they 
acted to fill this void. Through the process, Virginia 
lawmakers and others put the work in to make FASTC a reality.
    After opening on Fort Pickett in November 2019, FASTC is 
now meeting the need of security and personnel training that 
identified a decade ago. FASTC provides lifesaving security 
training to thousands of thousands of diplomatic security 
personnel and other members of the U.S. foreign affairs 
community. With this training, they are more prepared to 
identify, prevent, and respond to a wide range of security 
risks to U.S. personnel and United States citizens, and we are 
honored to be the home district of such a critical mission.
    However, while this state-of-the-art facility is training 
hundreds of government employees each week, FASTC still faces 
several barriers in reaching its full potential, and that is 
the subject of what I would like to discuss. The facility was 
originally designed not only to serve a critical national 
security function, one that has become even more necessary as 
we have witnessed attacks on U.S. embassies and American 
citizens, and heightened security risks, but also consolidated 
training that would generate cost savings for the Federal 
Government.
    Previously, members of the Diplomatic Security Service were 
training at multiple different facilities across the country. 
This is a consolidated effort, but it not only was meant to be 
beneficial from a fiscal standpoint, but also from an 
experience of training. Those cost savings have really not yet 
been realized, and FASTC has not yet achieved its maximum 
potential in terms of a comprehensive training experience. 
Right now, trainees are being bused in from hotels that are 
more than an hour away. I represent a long, thin district in 
central Virginia, and FASTC puts trainees in hotels in the 
Richmond, Virginia suburbs, and then putting them on country 
roads headed south for at least an hour's drive, sometimes 
crossing through the City of Richmond if it is on the northern 
side, sometimes avoiding the City of Richmond.
    There are no hotels or eating establishments nearby that 
can meet the needs of the hundreds of trainees at FASTC, and 
that means that Diplomatic Security agents and other trainees, 
they are bringing their own lunch. They are spending 3 hours on 
buses, and it is impacting the training experience. These are 
wasted hours and, frankly, wasted dollars chartering buses, 
renting hotels.
    We should all be concerned about the remaining deficiencies 
and how they could impair the security of American personnel 
around the world, but we don't have to accept these gaps. We 
can fix them while improving cost effectiveness. So it is 
imperative that we take affirmative next steps towards 
fulfilling the subcommittee's original vision for FASTC, both 
as a topnotch national security training facility and as an 
engine of local economic development.
    In the coming months, I look forward to working with the 
subcommittee and my colleagues in Congress on this issue. There 
is an opportunity to do better by both the American taxpayer 
and to our diplomatic professionals, and it starts with 
lawmakers delivering on the initial promise that was the idea 
of FASTC. And as the appropriations process proceeds, I will be 
working to address this challenge.
    I am proud to have this critical diplomatic security 
facility in Central Virginia, and I am committed to making it 
more effective on behalf of the public servants who train there 
and the American communities they serve. If we are not focused 
on preparing the next generation of diplomats and diplomatic 
security agents, it is not just an understatement to say we 
will be putting all Americans in jeopardy. These investments 
have real short-term implications for our ability to deal with 
the threats of tomorrow, and they have real long-term impacts 
on the investments we as a country are making.
    State Department training is critical to all aspects of our 
national security, and I hope the members of this subcommittee 
recognize this. I believe very much in the work that happens in 
Nottaway County at Fort Pickett and at FASTC. I have personally 
taken an oath to defend this country three times and its 
values, and I know that my colleagues in the Foreign Service 
have done the same. I look forward to working with you all in 
the future, and I thank you for paying attention to what is 
happening in FASTC and some of the challenges that are being 
created by the circumstances of the training facility.
    The Chairwoman. Let me thank you for testifying before us, 
and I would like to take this opportunity to thank you for your 
expertise and your unique set of, shall we say, abilities that 
are not shared by members in the Congress. So you are a 
valuable asset, and I thank you, and I look forward to hearing 
from you whenever it is convenient. Thank you for being here 
today.
    Ms. Spanberger. Thank you, Madam Chair.
    The Chairwoman. Mr. Rogers?
    Mr. Rogers. No questions.
    Ms. Spanberger. Thank you.
    The Chairwoman. Thank you.
    Ms. Spanberger. And thank you for your time.
    [The prepared statement of Ms. Spanberger follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Thank you. Representative Costa of 
California, a member of the Foreign Affairs Committee. Thank 
you for joining us today, and we will be happy to place your 
full testimony in the record. If you would be kind enough to 
summarize your written statement, and if you have time for any 
questions, we may just have some.

STATEMENT BY HON. JIM COSTA, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Costa. Thank you very much, Madam Chairwoman and 
members of the Subcommittee on State and Foreign Operations. 
Clearly I must say, you and your staff have a great view and on 
a good day. And so, but as a member of the Foreign Relations 
Committee, I am going to share some thoughts with you on, I 
believe, some appropriation funding issues that you are 
familiar with already. But let me underline them, and as you 
deal with the difficult task of attempting to put together the 
Appropriations Committee's priorities for our spending in the 
next fiscal year, I hope that you will consider these among 
your list of priorities that I think are important, and, again, 
that reflect, I think, America's needs in terms of our foreign 
policy priorities that are important.
    First, nutritional aid. Our foreign aid assistance effort 
is a very small percentage our Nation's budget, but I think it 
is critically important that we, in fact, show leadership 
around the world. And it is a part of our, I think, under our 
State Department's policy and efforts with our embassies around 
the world, and our partnerships, and our alliance with the 
European Union and others, an important part of smart power, 
smart power that adds credibility and influence in the troubled 
world that we live in where there are lots of challenges. The 
fact is that the nutritional aid has for decades been an 
important part of the smart power. It focuses on programs that 
are related to the appropriations you are considering.
    In the 2021 budget request, the President, I believe, 
needlessly zeroed out the funding for critical programs that 
include Food for Peace. This is a program that has existed for 
decades that has had overwhelmingly bipartisan support, and has 
had support of previous Republican and Democratic 
administrations alike. It provides lifesaving food assistance 
for some of the world's most vulnerable people in the Middle 
East, in Africa, in Asia, southeast Asia.
    So I think it is not only our moral obligation to provide 
humanitarian assistance that we work in conjunction with our 
partners in Europe and the European Union, but it is good 
public policy because food security we know is fundamental to 
national security in some of these countries that are so 
challenged internally. It is part of our smart power. And so I 
strongly urge this committee to robustly fund the nutritional 
assistance programs in the fiscal year 2021, and Food for Peace 
is a part of one of those programs. And you are familiar, I 
know, with it.
    Let me also separately talk about separate funding that I 
know the chairman of the Rules Committee just spoke to you a 
moment ago, and that is the demining operations that not only 
affect Nagorno-Karabakh, but other areas where people are at 
risk. This deals clearly with nonproliferation, antiterrorism, 
and demining to related NADAR programs in the fiscal year 2020-
21 appropriations. This was another, I think, tremendous cut 
that was made as a part of the President's 2021 budget request 
that I disagree with.
    Let me give you some examples that I think you are familiar 
with. The conventional weapons destruction sub-account has 
saved lives across the globe, and this funding has gone towards 
addressing humanitarian impacts of landmines and explosive 
remnants of war that ultimately combat proliferation of small 
arms and larger weapon systems. Whether we are talking about 
parts of the Middle East that we are very familiar with, 
certainly we and the United Nations and others have attempted 
to try to deal with this issue.
    We have seen success with this account, especially towards 
the legacy ordnances in places like Angola. I think this 
funding can and has proven to save lives, and when we do our 
part, I think it is reflected. Other places around the globe 
are in desperate need of funding, spanning from Vietnam, to the 
Republic, I said, of Nagorno-Karabakh, which is very important 
to many of my constituents, who are of Armenian background. I 
think it is our moral duty as a Nation to continue to lead this 
humanitarian effort, and I strongly urge this committee to 
robustly fund the nonproliferation, antiterrorism, demining, 
and related programs in fiscal year 2021, as Congressman 
McGovern and others have also supported.
    These programs are critical across the globe as we try to 
strive for peace and democracy, as we try to stabilize troubled 
areas. That concludes my testimony.
    The Chairwoman. Well, thank you very much. I remember my 
trip to Nagorno-Karabakh. You have been there quite a few years 
ago.
    Mr. Costa. Yes.
    The Chairwoman. It is an experience I will never forget.
    Mr. Costa. Yes.
    The Chairwoman. So I thank you for appearing before us. Mr. 
Rogers?
    Mr. Rogers. Thank you, sir.
    Mr. Costa. Well, thank you, Congressman Rogers, and my 
colleague and classmate, Mr. Fortenberry. And I don't know 
where you want me to submit the testimony for the record.
    Mr. Fortenberry. Madam Chair, could I interject one thing?
    The Chairwoman. Of course.
    Mr. Fortenberry. You noted the view. Do you know what is 
straight that way? It is Nebraska, almost straight that way----
    Mr. Costa. You keep going, you get to California. 
[Laughter.]
    Mr. Fortenberry. Yes.
    Mr. Costa. And I think probably you all know the history, 
but the front of the Capitol is the east steps, and this is 
considered looking west. Obviously not the----
    The Chairwoman. The Washington Monument, isn't that out 
there?
    Mr. Costa. Right, but up until President Reagan, and it is 
the President's choice to have their inauguration, it has 
traditionally been out on the east steps. And President Reagan 
and Mike Deaver, who always had the eye for the photo-op, 
thought this is a much better view. And he was a California 
governor, and he thought it was appropriate to look west, and 
he made that change. And since then, every President-elect has 
chosen to have their inauguration looking west.
    The Chairwoman. How do you like that? That is very 
interesting.
    Mr. Costa. Yes, but----
    The Chairwoman. I got to write that down so I don't forget 
because that is a long story. That is the view from the window 
in my office.
    Mr. Fortenberry. It is amazing Congressman Costa brought 
this up because every time I walk in the room, too, I think not 
of that particular story, but I think we are looking straight 
west, straight at Nebraska.
    Mr. Costa. Well, but this is not considered the front of 
the Capitol interestingly. The front of the Capitol is 
considered the steps.
    The Chairwoman. And I didn't realize that every President 
has --
    Mr. Costa. Up until Reagan. So I think it is from Monroe 
until Jimmy Carter.
    The Chairwoman. And Reagan went to the east.
    Mr. Costa. To the west steps. Every President from Monroe, 
I believe, until Ronald Reagan had theirs. If you look at 
Franklin Roosevelt, if you look at John F. Kennedy, in 1961 it 
had snowed, and Robert Frost gave the poem, and there were 
about 45,000 people out on the east steps. And that 1865 
portrait of Lincoln in his second term, that incredible speech 
that he gave, ``Now is the time to heal the wounds of a Nation, 
with malice toward none and charity for all.'' And 60 feet down 
below was an actor by the name of John Wilkes Booth that 30 
days later would kill him.
    But that is where all the inaugurations were until 
President Reagan said, this is a better view. And, of course, 
it is an amphitheater because of the way it is constructed with 
the steps. And then, of course, you can have a lot more people 
this way. I am not going into the photographs and the accounts 
of how many people were in 2010 versus 2018. I think that is 
well documented.
    The Chairwoman. So I wasn't aware of that, that Reagan was 
the first was the first who chose the west.
    Mr. Costa. Yes.
    The Chairwoman. Well, thank you very much.
    Mr. Costa. All right. Well, thank you, and I appreciate the 
good work you do always, OK?
    Mr. Rogers. Thank you.
    [The prepared statement of Mr. Costa follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. We welcome Representative Hill of Arkansas, 
a member of the Financial Services Committee, and I thank you 
very much for testifying. And I hope you were here for that 
history lesson.
    Mr. Hill. I was, and I enjoyed it. I have stood out there 
on many a cold day since 1980.
    The Chairwoman. Thank you.

STATEMENT BY HON. J. FRENCH HILL, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARKANSAS

    Mr. Hill. Well, Chairwoman Lowey, thank you for your years 
of service to our Congress and to the American people. It is a 
pleasure to be before you today. And my friend, Mr. Rogers, 
good to be with both of you. I want to talk to you on the 
subject of religious freedom and tolerance that Jim McGovern 
broached a few minutes ago. I want to thank you for including 
language in fiscal year 2020 in the committee report regarding 
efforts to ensure religious freedom and tolerance for Christian 
communities in Egypt, and for the opportunity to testify in 
front of you today about this year's request regarding the 
treatment of Christians in Egypt.
    The report language I intend to request would require the 
Department of State to report to Congress on the steps that the 
Egyptian government is taking to ensure proper treatment and 
justice for Christians communities in their country. The report 
shall include information on church restoration, Christian 
participation in government, the history of persecution against 
Egyptian Christians, and the status of Egyptian Christians 
being held in detention by the government.
    My interest in making this request comes from our work on 
House Resolution H. Res. 49, Supporting Coptic Christians in 
Egypt, which has a diverse and bipartisan coalition of co-
sponsors. My Democrat lead on H.Res. 49 is my friend, David 
Cicilline of Rhode Island. Co-sponsors include 25 from House 
Foreign Affairs and Grace Meng from this subcommittee.
    I introduced this resolution in the 115th Congress 
following a 2017 visit to Egypt. While preparing for the trip, 
visiting the country, and returned home, I heard repeatedly 
about the plight of Coptic Christians in Egypt. Although the 
Copts have been victims of numerous terrorist attacks by groups 
like ISIS, what is more disturbing to me are the attacks 
against Copts carried out by their fellow Egyptians. There is a 
persistent narrative in Minya Province, located in upper Egypt, 
that 2018 and 2019 State Department Reports on Religious 
Freedom in Egypt mentioned Minya Province as an area of concern 
more than many other province in the country. Also in late 
November, Ramy Kamel, a Coptic Christian and founder of the 
Coptic Christians Rights Organization, was arrested by the 
Egyptian police, and has been accused of numerous terrorism 
charges. He remains in detention.
    Unfortunately, cases like this in Egypt are becoming more 
numerous. Egypt is a key partner nation in the fight against 
terrorism, and we are grateful for their commitment to Camp 
David and their cooperation with Israel to defeat terrorists 
operating in the Sinai Peninsula. Egypt, however, is the 
second-highest receiver of annual military aid in the world, 
and our government holds Egypt to a higher standard as it 
relates to our sustained aid.
    I believe we must ensure that we uphold and protect 
religious freedom and liberty around the world as the 
gatekeepers of Federal spending. I request that the 
Appropriations Committee include this report language in the 
fiscal year 2021 bill in order to support that objective. I 
thank you, Madam Chair and Ranking Member Rogers. I appreciate 
the opportunity to work with you on this, and thank you for the 
opportunity to testify.
    The Chairwoman. And thank you for appearing here today.
    Mr. Hill. Indeed, on the west side of the Capitol. 
[Laughter.]
    The Chairwoman. I don't have any questions. Do you, Mr. 
Rogers?
    Mr. Rogers. Yes. I thank the gentleman for his testimony 
and his urgent plea with us. I took a delegation to Egypt in 
2017, and we were meeting that Sunday morning with President 
al-Sisi in the palace when the first of two church bombings 
took place, the Coptic church bombings. His advisers came in 
and whispered into his ear what had happened, so we learned of 
it at the same time.
    Palm Sunday and these were Coptic churches. It had a deep 
impact, I think, on the government, starting with the 
president. I know there are challenges, and I thank you for 
raising it, but there is also some progress, I think, being 
made on religious freedom in Egypt. Just last month, our 
ambassador, along with senior Egyptian government officials, 
attended the opening of a historic synagogue that had just 
completed a major restoration project, led and partially funded 
by the government. On Christmas Eve last year, President al-
Sisi joined the Coptic pope for mass at a Coptic cathedral and 
called for unity.
    But I can assure you, we will continue to press the issue. 
You are exactly right to urge that this language be included. 
As I am sure you know, our relationship with Egypt and the role 
Egypt plays in the region, critically important. That is why I 
believe it is important to continue to press for improvement in 
a respectful manner on a range of issues where there are still 
challenges. Thank you, sir.
    Mr. Hill. I appreciate that, Mr. Rogers. I want to say that 
I agree with you. President al-Sisi has led from the top on 
this issue, and he should be given credit for his strong speech 
at Al-Azhar, the large Islamic well-known university, with the 
grand imam about the need for religious tolerance, and changing 
the policies. And his grief for the loss of Coptic Christians 
and the brutality at St. Peter and St. Paul Church in Cairo is 
genuine. He has built the largest Coptic cathedral in the world 
now at the new administrative center outside Cairo.
    So I think President el-Sisi is on the right track, but as 
President Reagan said, human rights and religious tolerance is 
not social work, it is a fundamental tenet of American foreign 
policy. And so I agree with you that we should, in the most 
diplomatic and professional tone, maintain this press that we 
have in order to give President el-Sisi that deep commitment 
that we have that he gets changes throughout Egypt. Egypt is 
nearly 100 million now. Copts are 15 percent of the population. 
And so while there have been really progress on church 
reconstructions, synagogue reconstruction, and leadership from 
the top, we want to make sure that we maintain our views with 
Egypt in a firm manner in this regard to make sure that all 
Christians in Egypt receive the tolerance and respect they 
deserve. But thank you, sir. I appreciate that. I yield back. 
Thank you.
    [The prepared statement of Mr. Hill follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Thank you. Representative Jackson Lee of 
Texas, a senior member of the Judiciary Committee. Thank you 
for joining us today.
    Ms. Jackson Lee. Thank you for having me.
    The Chairwoman. We will place your full testimony in the 
record, and if you would be kind enough to summarize your 
written statement, we would be appreciative. Thank you.
    Ms. Jackson Lee. Thank you very much.

   STATEMENT BY HON. SHEILA JACKSON LEE, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Ms. Jackson Lee. Let me on the record thank the chairwoman, 
Mrs. Lowey, and certainly the ranking member, Mr. Rogers, and 
all of the staff. This is an important committee, as it has 
always been, one of the major opportunities for America to 
interact with the world. Thank you for the leadership you have 
given.
    I am going to start with the well-known issue of the day 
that does have an international impact, and that is the 
coronavirus. I am a member of the Homeland Security Committee. 
I spoke in my district in the beginning of February on this 
issue and concerns about whether this Nation was prepared. We 
have seen now obviously a soldier that has been out of the 
country who has been diagnosed. We see another individual in 
the country diagnosed.
    But my concern as it relates to the international arena is 
the infrastructure in some of our developing nations, and, in 
particular, the continent of Africa. I, for a long time, 
advocated building an infrastructure of hospitals in Africa, 
and so I am just generally going to speak to the question of 
how imperative it is now that our allies and partners in the 
developing world have diagnostic equipment, medical supplies, 
doctors, workers, hospitals, and any other additional resources 
as they might begin to address the coronavirus.
    I know that there is the World Health Organization, but in 
my interaction on the continent, one of the things most 
noticeable in Africa, in the countries in Africa, is a lack of 
a viable hospital system. I would hope that in the 
appropriations process, we might consider seeding that as we 
look to the amount of money that is coming from another 
committee, but overlapping in this committee, dealing with the 
coronavirus.
    Let me also indicate my support, $70 billion for the 
international affairs budget, and, I will summarize, that 
really reinforces the three-pronged approach diplomacy to fight 
terrorism, supporting our allies, building new markets for U.S. 
goods and services, combating pandemics, and providing 
lifesaving humanitarian assistance. And I think the 
International Affairs budget is just 1 percent of the total of 
the Federal budget, but the programs it funds are very 
important and very strategic.
    $3.3 billion for international security for Israel. I think 
it speaks for itself, and I have always been supportive of 
stabilizing the region. I continue to support a two-state 
solution, but I believe that security assistance is crucial. 
And I support the $110 million for the emergency refugee and 
migration assistance. I take issue, and would look at the bar 
that the administration has put on many States or suggesting 
that they not take refugees. Let me be very clear that Texas 
has taken refugees for as long as I have known. I have chaired 
a nonprofit organization called Interfaith Ministries where one 
of our key components was providing for refugees and helping 
them to adjust to U.S. life.
    I support the $875 million for child survival and maternal 
health. That is one of the key elements that even was prominent 
during the fight against HIV in developing nations in maternal-
to-child transfer, and these are important elements. I support 
the $450 million for long-term drinking funding as well as 
human trafficking dollars, $265 million, monies for the 
Caribbean, monies in particular for Peace Corps. I think that 
is one of the major components of our face to the world.
    And let me indicate my support for several programs that I 
have seen in action when I have traveled overseas: one, the 
Charles R. Rangel International Affairs Program that I was here 
when it was created and named after Congressman Charlie Rangel, 
the general support of the USAID Donald M. Payne Fellowship. 
And I have seen these recipients in our embassies around the 
world. Forty million for the U.S. Institute of Peace, and I 
support the Cultural Exchange Program. Again, I have seen that 
at work, $640 million for educational and cultural diversity. I 
support the continuation of funding for HIV/AIDS, $4.88 
billion, and I am supporting the preservation of wildlife, $85 
million combatting wildlife trafficking programs, hopefully in 
tribute to the Cecil the lion, who lost his life.
    I just want to conclude my remarks by saying I have the 
privilege of being part of the Helsinki Commission, the Tom 
Lantos Human Rights Commission, looking at issues of 
development and human rights and the rule of law. I believe 
that our foreign assistance is key to our position on 
democracy, the rule of law, and engagement with allies where we 
develop more friends through engagement than we do through the 
acts of war. And I thank you for listening to me today.
    The Chairwoman. Thank you very much, and I don't have any 
questions. Mr. Rogers, do you have any questions?
    Mr. Rogers. I thank the gentlelady.
    Ms. Jackson Lee. Thank you.
    The Chairwoman. Thank you for appearing before us.
    Ms. Jackson Lee. Thank you very much.
    [The prepared statement of Ms. Jackson Lee follows 
follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Chu. Hello.
    The Chairwoman. Welcome, Representative Chu of California, 
a member of the Ways and Means Committee. We thank you for 
testifying, and we will be happy to place your full testimony 
in the record. If you would be kind enough to summarize your 
written statement. I want to make sure we have enough time to 
answer questions. Thank you.
    Ms. Chu. Yes.

 STATEMENT BY HON. JUDY CHU, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Ms. Chu. Thank you so much, Chairwoman Lowey and Ranking 
Member Rogers. Thank you for the opportunity to come before 
this committee today as the representative of one of America's 
oldest and largest Armenian communities. I come here today in 
strong support of providing $10 million to continue America's 
successful and lifesaving demining program in Nagorno-Karabakh. 
Over 30 years ago, as the Soviet Union was collapsing, the 
people of Nagorno-Karabakh, an overwhelmingly Armenian enclave, 
were united in the goal of self-determination. But their 
peaceful movement was followed by violence and government-
sponsored pogroms from Azerbaijan. And when the people of 
Nagorno-Karabakh voted for independence, they were met with 
war, the consequences of which are still being felt today.
    Over the next 3 years, tens of thousands lost their lives, 
hundreds of thousands became refugees, and Nagorno-Karabakh 
became one of the land-mined areas of the former Soviet Union. 
These landmines and unexploded ordnance UXOs remain today, 
making it impossible or difficult to settle the land and lay 
the foundation of a stable state, and killing at least 383 
civilians in Nagorno-Karabakh since 1995.
    Fortunately, America has the ability and the means to 
safely identify and remove these threats. With the support of 
USAID, the HALO Trust, a non-political and non-religious 
organization, has operated in Nagorno-Karabakh since 2000, 
clearing over 33,000 acres of former minefields. Thanks to 
HALO, over 3,500 landmines, 3,100 cluster munitions, and 7,600 
items of unexploded or abandoned ordnance have been destroyed. 
But with at least 1.7 million square meters of contaminated 
areas still remaining, USAID is trying to end support for this 
program with little or no justification.
    For instance, in a recent letter defending the decision to 
shift away demining, USAID told me there have been no reported 
civilian injuries or casualties from mines since 2017. But, in 
fact, there have been 10 civilian casualties in that time from 
landmines, and an additional two from cluster munitions. And in 
just the past 12 months, there have been 12 near misses, like a 
farmer digging in his field, only to trigger a mine, causing 
great destruction. Thankfully, though, he survived. Another man 
was riding his horse when they hit a mine. Fortunately, the man 
survived, but the horse did not, demonstrating the ongoing 
threat from these mines.
    In that same letter, USAID justified their move away from 
demining by saying they wanted to shift the focus to preparing 
populations for peace, but landmines and UXO are literal 
obstacles to that goal. Landmines exist to prevent peace and to 
make it impossible for the populations to settle, use land, and 
reduce tensions. That is why the U.S. has proudly been the 
world's largest supporter of human demining. This is a 
commitment we must not back away from, especially since we know 
that there is work left undone.
    This request of $10 million pales in comparison to the $100 
million in security assistance given to Azerbaijan. So we can 
be sure that financial constraints are not the obstacle here, 
and it does not make sense to walk away from a program that 
USAID acknowledges has been successful while there are so many 
acres of land left to clear. If we are sincere in our 
commitment to peace, then we must support this request of $10 
million, which would allow HALO to finish their work and remove 
the landmines and UXO that daily threaten the lives of 
civilians in Nagorno-Karabakh.
    Thank you for your consideration of this important request.
    The Chairwoman. Thank you very much. We appreciate your 
appearing before us. Mr. Rogers?
    Mr. Rogers. Thank you for being here. Thanks for your 
statement.
    Ms. Chu. Thank you.
    The Chairwoman. Thank you. Have a good rest of the day.
    [The prepared statement of Ms. Chu follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Well, did we all learn something about the 
west view. I didn't know that. Did you know about that?
    Mr. Rogers. I was sworn in at the same time. President 
Reagan gets credit for moving it over here, but it was really 
me that did it. [Laughter.]
    The Chairwoman. The Subcommittee on State, Foreign 
Operations and Related Programs is adjourned.
    [Additional testimony for the record follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                           Thursday, March 12, 2020

         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

                           PUBLIC WITNESS DAY

                               WITNESSES

KATE O'BRIEN, REPRESENTATIVE, THE TB ROUNDTABLE
W. RON ALLEN, TRIBAL CHAIRMAN AND CEO, PACIFIC SALMON COMMISSION
DAVID ARNOLD, PRESIDENT AND CEO, THE ASIA FOUNDATION

             OPENING STATEMENT BY CHAIRWOMAN LOWEY

    The Chairwoman. Good morning. The Subcommittee on State, 
Foreign Operations, and Related Programs will come to order.
    To our distinguished witnesses, welcome. Thank you for 
coming to our subcommittee to present your views on the 
agencies and programs funded by the State Department, Foreign 
Operations, and Related Programs appropriations. Our public 
witnesses represent a wide array of perspectives and expertise 
that help Congress better assess the impact and effectiveness 
of foreign assistance. As we assess the President's budget 
request for fiscal year 2021, your voices are critical to the 
appropriations process.
    Let me be clear. Our Nation's security cannot afford a 
budget that does not adequately fund our diplomatic and 
development programs or lifesaving humanitarian assistance. 
Diplomacy and development programs are our best hope to tackle 
the difficult issues facing the world, making the draconian 
cuts proposed by this administration irresponsible. As long as 
I have been part of this subcommittee, we have had bipartisan 
agreement that foreign assistance is critical to our national 
security and to maintaining America's leadership role in the 
world. As chairwoman, I have every expectation that we will 
produce a bill that maximizes each taxpayer dollar while 
responding to today's many needs. We are eager to hear your 
testimonies, and we look forward to working with your 
organizations throughout the appropriations process.
    Before we begin with our first witness, let me turn to my 
distinguished ranking member, Mr. Rogers, for his opening 
remarks.

         OPENING STATEMENT BY RANKING MEMBER HAL ROGERS

    Mr. Rogers. Thank you, Madam Chair, and thank you for 
convening this hearing so that we can hear from a variety of 
organizations on their priorities for Fiscal 2021. We look 
forward to hearing their testimony, and I yield. Thank you.
    The Chairwoman. And welcome to all of you. Our first panel 
is Ms. Kate O'Brien, the representative of The TB Roundtable; 
Mr. Ron Allen, tribal chairman and CEO of the Pacific Salmon 
Commission; and Mr. David Arnold, president and CEO of The Asia 
Foundation. Thank you for joining us today. Your full testimony 
will be placed into the record. You each will have 3 minutes, 
starting with Ms. O'Brien, then Mr. Allen, and finally Mr. 
Arnold. Feel free to summarize your statement, and we will 
withhold any questions until after Mr. Arnold has finished. The 
clock will flash yellow when you have 1 minute remaining. Ms. 
O'Brien, please proceed.

                OPENING STATEMENT BY MS. O'BRIEN

    Ms. O'Brien. I really would like to thank Chairwoman Lowey, 
Ranking Member Rogers, and the entire subcommittee for having 
me here today. On behalf of tuberculosis patients across the 
world, I am really very, very honored to be here today and to 
provide this testimony. I am very proud of the steps that my 
country has recently taken to combat tuberculosis as it has 
become increasingly drug resistant across the world, and I ask 
you to please consider increasing funding for USAID's 
tuberculosis program to $400 million in the fiscal year 2021 
for the safety and security of all of our families.
    I wish to share with you the way that my own family was 
impacted by TB. It is the No. 1 infectious disease killer in 
the world, and what happened to me happens to 10 million people 
around the world every year. I am going to cut it a little 
short for time. The important thing for you to know is that I 
was pregnant with my second child, and everything was going so 
awesome. I was so excited to be pregnant. I was working a great 
job, and I couldn't really enjoy it because I was just feeling 
so terrible. Now, you guys all know why, but I was coughing. I 
was had sweats, and just like tuberculosis patients everywhere, 
it took a very long time for me to be diagnosed. It didn't 
happen until I was in a hospital and I was very close to death 
and losing my baby. It was terrible.
    When they did find out I had tuberculosis, I had to be put 
into immediate quarantine. I was there in isolation from 
January until April 2015. I was eventually put on a regimen 
that I could tolerate, and I was able to leave the hospital and 
see my son, and then I took medication for another year. When I 
took my medication, a State health worker had to come and watch 
me take it and swallow it. This happens every day, and this is 
how tuberculosis is treated around the world. So I am sure you 
guys all can kind of imagine that that takes a lot for a State 
health department, every single person you have having TB, 
having that kind of treatment.
    The medication doesn't make you feel good. It makes you 
have nausea, diarrhea--sorry--liver problems, and those are the 
decent side effects. Other side effects of other tuberculosis 
treatment, especially for drug-resistant regimens, can include 
deafness. It can include neuropathy, these really, really 
strong antibiotics that we use to treat resistant strains. So 
it is a lot. Like, you have to explain to a tuberculosis 
patient why they have to take drugs for, you know, 9 months to 
a year when they don't make them feel good, and that takes a 
lot of work. So tuberculosis, even though it is curable, you 
know, it can take a lot of time and effort to treat.
    Also, you know people have to be quarantined. They have to 
be put into isolation. It is a difficult illness to treat, and 
that is why we are having problems with people not completing 
their regimens and the illness becoming drug resistant. So 
anyway, you know, we can all imagine what it would be like if 
we had more tuberculosis cases in this country. We are very 
lucky that we are able to do what we can to do now, but we are 
not really reaching tuberculosis elimination. We are just kind 
of keeping it where it is at, and elsewhere in the world, it is 
growing.
    OK. It is a tragedy and an injustice that 1\1/2\ million 
people died in 2018 of a curable disease. USAID does incredible 
work, and please consider funding them for $400 million. Thank 
you.
    [The prepared statement of Ms. O'Brien follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Thank you very, very much for being here. 
Mr. Allen?

                 OPENING STATEMENT BY MR. ALLEN

    Mr. Allen. Thank you, Madam Chair, committee members. My 
name is Ron Allen, and I appreciate the committee accepting our 
testimony with regard to the Pacific Salmon Commission, and our 
U.S. representatives in this International Fisheries 
Commission.
    The U.S.-Canada Pacific Salmon Treaty was signed back in 
1985. It is a very complicated treaty dealing with all of the 
different species of Pacific salmon that migrate from Alaska 
through Canada into the lower 48, Washington, Oregon, Idaho, 
and it is represented by people like myself. I represent 24 
Indian tribes, one in Alaska, and the others represent the 
States of Alaska, Washington, Oregon, and Idaho, and we have 
our colleagues on the Canadian side.
    The salmon industry in the northwest is a multibillion 
dollar industry. Tens of thousands of families are dependent on 
this resource and the fisheries, and all the tertiary 
businesses that surround the industry, and it is a huge issue 
for us. We have an international fisheries commission, our 
secretariat office. That secretariat office, the secretariat 
actually is sitting in the audience with me. And its 
responsibility is to facilitate the U.S. and Canadian folks 
with regard to the meetings that we have.
    We have been level funded now for 10 years with regard to 
the secretariat office. The office's responsibility primarily 
is to manage Fraser River sockeye and pink salmon. The Fraser 
River system is one of the largest in the world. It is one of 
the largest fisheries in the world, and it is very, very 
challenging and very complicated. It is a small staff of about 
30 people, and it has an extension responsibility for all of us 
who are dependent on that particular species, and it is now 
rolling over into other responsibilities with regard to Chinook 
and other species.
    So in 2020, we had asked for $5.9 million, and that is what 
we received. We are asking for a $250,000 increase. The funding 
for the secretariat function, as I said, hasn't changed in 10 
years. And Canada has agreed with us that they would match the 
United States in terms of that increase in those funding to 
cover the cost of managing these fisheries, so it is a huge 
issue. We are also asking for the second half of $3.5 million 
for what is called a mass marketing selective fishery program. 
We have both agreed to put $3.5 million in it, and so we are 
asking for the other $1.75 for 2021.
    We appreciate your consideration. Thank you, Madam Chair.
    [The prepared statement of Mr. Allen follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Thank you very much.

                OPENING STATEMENT BY MR. ARNOLD

    Mr. Arnold. Good morning, Madam Chair, Ranking Member 
Rogers, members of the subcommittee. Thanks so much for the 
opportunity to testify today. I have to say on behalf of all of 
us, this is a bit of a bittersweet occasion as we acknowledge 
and thank Chairwoman Lowey for her dedicated leadership and 
service to our Nation and to the global community. So it is a 
privilege to be here, to appear before you, Madam Chair.
    As the members of this subcommittee know, The Asia 
Foundation is a private nonprofit organization that is 
dedicated to strengthening democratic institutions, promoting 
peace and stability, and improving lives throughout developing 
countries across Asia. Established in 1954 and headquartered in 
San Francisco, we operate through 18 country offices across the 
region. Our knowledgeable and expert staff build important and 
enduring relationships with Asian governments and leaders, work 
with civil society organization and private sector partners, 
and maintain links to local communities in each of the 
countries where we work.
    Thanks to your ongoing support, the Foundation has been 
able to advance American interests and values by strengthening 
democratic institutions, promoting government transparency, 
expanding women's rights and opportunities, and fostering 
market-based economies in Asia. To build on Congress' historic 
investment in the Foundation, this year we are asking you to 
consider $20 million for fiscal year 2021, which is a modest 
increase of $1 million over our current funding of $19 million.
    Thanks to your support over the years, millions of people 
in Indonesia, Afghanistan, Nepal, Laos, and Sri Lanka have 
access to justice to protect their lives and property and 
mediate disputes. Millions of women in Cambodia, India, Nepal, 
Afghanistan have the ability to go to school, exercise their 
rights to vote and hold office, to protect themselves and their 
children from being trafficked and from gender-based violence. 
And millions of students and children across Asia have access 
to global information and knowledge thanks to the millions of 
English-language books and local language materials distributed 
through our longstanding Books for Asia Program.
    Looking to the future, the Foundation is pursuing new 
technology-driven programs to expand economic empowerment, 
improve cybersecurity, and combat disinformation, and we are 
ramping up our program activities in the Pacific Island nations 
that are important to U.S. interests. As you know well, 
appropriated funding is critical to the Foundation's ability to 
maintain our regional presence and sustain our core programs. 
We are asking you, therefore, to support the Foundation in 
fiscal year 2021 at the level of $20 million for the coming 
fiscal year. Thank you.
    [The prepared statement of Mr. Arnold follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Thank you very much, and as you know, our 
entire panel here would like to have long conversations with 
each of you. But because we are limited by time, if there are 
no questions, I am just going to thank you all, and we look 
forward----
    Ms. Frankel. Madam Chair, I just have----
    The Chairwoman. Go ahead.
    Ms. Frankel. Very, very quick. Thank you. I would just ask 
that everybody who testifies to do what Mr. Arnold just did, is 
just let me know or let us know whether you are being funded 
now and at what level, and then what kind of increase that you 
are asking for. That is for everybody. Thank you.
    The Chairwoman. So thank you very much, and we look forward 
to continuing to work together. Thank you.

                               WITNESSES

CHRIS COLLINS, PRESIDENT, FRIENDS OF THE GLOBAL FIGHT
JOAN ROSENHAUER, EXECUTIVE DIRECTOR, JESUIT REFUGEE SERVICE/USA
JEANNE BOURGAULT, PRESIDENT AND CEO, INTERNEWS
    The Chairwoman. Good morning. Our second panel is Mr. Chris 
Collins, president of Friends of the Global Fight, Ms. Joan 
Rosenhauer, executive director of Jesuit Refugee Service/USA, 
Ms. Jeanne Bourgault, president and CEO of Internews. Thank you 
very much for joining us today. Your full testimony will be 
placed into the record. You each will have 3 minutes starting 
with Mr. Collins, then Ms. Rosenhauer, and finally Ms. 
Bourgault. Feel free to summarize your statement, and we will 
withhold any questions until after Ms. Bourgault has finished. 
The clock will flash yellow when you have 1 minute remaining.
    Mr. Collins, please proceed. And I want to just say in 
advance, don't be insulted if we don't ask you questions. But 
because of this very hectic day here, we are moving through the 
process effectively and efficiently. So, Mr. Collins.

                OPENING STATEMENT BY MR. COLLINS

    Mr. Collins. Thank you, Madam Chairwoman, Ranking Member 
Rogers, and the full subcommittee for your steadfast support of 
America's leadership in the fight against infectious disease, 
and, in particular, for your generous support for the Global 
Fund to Fight AIDS, Tuberculosis, and Malaria.
    Chairwoman Lowey, I want to take this opportunity to thank 
you personally for your more than 3 decades of service. Your 
leadership has been hugely consequential, and you are an 
inspiration to all of us.
    Last May, this subcommittee led the way in increasing the 
U.S. commitment to the Global Fund, the first increase in 6 
years. I know that wasn't easy to do, but the impact of that 
investment has already been substantial. One month later, the 
United Kingdom announced their own increased pledge, and 
through the summer, other donors followed. In October, $14 
billion was pledged at Global Fund Replenishment.
    I want to applaud the members who took time out to travel 
to Replenishment and represent the U.S. commitment to the 
Global Fund there. Thank you, Representative Aguilar, 
Representative Hurd, Representative Lawrence, and 
Representative Roby. Thank you as well to subcommittee staff 
who worked so hard on the bill and supported those members: 
Susan Adams, Erin Kolodjeski, and Steve Marchese.
    Last year, even as many countries turned inward and 
criticism of globalization was on the rise, at Global Fund 
Replenishment, the world was able to affirm the value of 
collaborative efforts to tackle global infectious disease. How 
did that happen? One reason is the Global Fund's consistent 
delivery of results. Since its creation in 2002, the Global 
Fund Partnership has saved over 32 million lives.
    Countries supported by the Global Fund have seen remarkable 
declines in mortality, 56 percent decline in HIV-related 
deaths, 22 percent in TB, 46 percent in malaria. The Global 
Fund is also transforming societies by promoting local 
ownership, engaging civil society to the private sector and 
faith communities, and incentivizing governments to invest more 
in the health of their own people. For the United States, the 
Global Fund remains an outstanding investment. It amplifies the 
impact of our excellent bilateral global health programs, and 
for the U.S., U.S. pandemic preparedness and response requires 
all our global health investments.
    The Global Fund invests in stronger health systems that are 
better able to detect and respond to emerging infectious 
diseases, including COVID-19, and already the Global Fund has 
encouraged countries to reprogram savings to mitigate COVID-19 
impacts in health system.
    There remain critical challenges ahead in the effort to end 
the epidemics of AIDS, TB, and malaria. Yet even with these 
challenges, the success of Global Fund Replenishment means that 
during the next 3-year cycle, the organization and its partners 
will be able to save an additional 16 million lives and prevent 
234 million infections. Continued U.S. funding at last year's 
level sets the Global Fund up for success. I worry that reduced 
U.S. funding would undermine confidence of donors, complicate 
Global Fund country allocations, and diminish our investment in 
effective healthcare systems.
    Therefore, Friends of the Global Fight requests you 
maintain U.S. funding to the Global Fund at the current $1.56 
billion in fiscal year 2021. We also request that you again 
reject the administration's proposal to reduce the U.S. share 
of support for the Global Fund and keep it at the traditional 
33 percent level. And, of course, we support the highest 
possible allocation to international assistance overall.
    Thank you for your commitment to maintaining bold U.S. 
global leadership in the fight against the most deadly 
infectious diseases in the world. With your support and the 
support of partners, we are making significant progress and 
saving many lives. Thank you.
    [The prepared statement of Mr. Collins follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Thank you very much. Ms. Rosenhauer.

              OPENING STATEMENT BY MS. ROSENHAUER

    Ms. Rosenhauer. Well, thank you, Chairwoman Lowey and 
Ranking Member Rogers, and to the entire committee. I 
appreciate the opportunity to present Jesuit Refugee Service's 
views on the importance of investing in refugee assistance 
programs, including refugee education. Specifically, we urge 
the subcommittee to approve $3.6 billion for migration and 
refugee assistance. That is compared to $3.4 million in 2020, 
and $975 million for basic education programs, compared to $875 
million, including $50 million for Education Cannot Wait, which 
has $25 million in the current appropriation.
    U.S. engagement and support for refugee assistance programs 
has a direct impact on the well-being and even the survival of 
millions of the world's refugees. Given the range of crises 
today, from the Venezuelan crisis in our own hemisphere, to the 
Syrian conflict entering its 10th year, it is essential for the 
U.S. to remain engaged in helping those who are most 
vulnerable. In 2018, the United Nations high commissioner for 
refugees estimated that nearly 71 million people were forcibly 
displaced worldwide. If they were all in one place, it would 
represent the 13th largest country out of 195 countries in the 
world.
    It is estimated that 37,000 people per day are forced to 
flee their homes due to conflict and persecution, and more than 
70 percent of all refugees find themselves in protracted or 
long-term crisis situations. JRS is on the front lines of 
working with refugees and other forcibly-displaced persons in 
57 countries. With support from the State Department's Bureau 
for Population, Refugees, and Migration, we are able to provide 
lifesaving assistance and to help to improve their quality of 
life by providing education, livelihoods, healthcare, and other 
services for refugees who otherwise would have nowhere to turn.
    So what do we need Congress to do? First, fund the 
Migration and Refugee Assistance Account at the level I 
suggested, which support lifesaving programs and plays a vital 
role in asserting U.S. leadership and national interests around 
the world. U.S. funding provides essentials, such as food, 
water, shelter, healthcare, and education, and assists many 
developing countries that are hosting more than 80 percent of 
the world's refugees.
    Second, prioritize refugee education. 3.7 million refugee 
children are currently out of school. An even greater number, 
75 million conflict-affected children, lack educational 
opportunities, making them more vulnerable to violence, and 
trafficking, and child labor, child marriage, and recruitment 
by armed groups. Not only does education offer an important 
form of protection for children, it also gives them hope as it 
prepares them for a brighter future, and, frankly, it affects 
the future for all of us and our children in a globalized 
world. But the response has not kept pace with the need. In 
2018, only 2.6 percent of human funding was allocated to 
education.
    We want to extend our sincere thanks to the subcommittee 
for including $25 million for the first time in several years 
for ECW, for Education Cannot Wait, in the fiscal year 2020 
State and Foreign Operations appropriations bill. And we urge 
you to continue support for this important initiative. So thank 
you very much. As the world grapples with the millions of 
people who have been forced to flee their homes, now is not the 
time to cut back. And we urge you to provide the funding that I 
suggested at the beginning.
    And thank you for your support for those programs.
    [The prepared statement of Ms. Rosenhauer follows:] 
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Thank you very much. Ms. Bourgault.

               OPENING STATEMENT BY MS. BOURGAULT

    Ms. Bourgault. Thank you, Madam Chairwoman and members of 
the committee. I am honored to testify before you today.
    Like me, I suspect everyone in this room is scanning the 
news every waking moment for the latest on what is happening 
with the coronavirus pandemic, a pandemic that has also been 
called an infodemic. During times like these, we all experience 
the urgency of access to trusted local relevant information, 
and knowing that most of the world does not have access to such 
information is what drives me to work and what drives my 
organization, Internews.
    We are not a news organization, but we build healthier 
information environments in countries where they struggle to 
exist. For over 40 years and over 100 countries, we have 
trained hundreds of thousands of people on journalism, media 
management, advocacy for better internet, and media policies. 
To address your question directly, we don't have a direct 
appropriation from the foreign assistance bill, but we do 
manage about $70 million of funds from USAID and the State 
Department in 2020 this year.
    Today we want to urge Congress to consider two priorities. 
First, to increase investment in democracy, human rights, and 
governance programs broadly, with support for independent media 
and internet freedom as a critical element of that support. 
Second, to continue to support global health and humanitarian 
programs that deliver high-quality and contextually-appropriate 
information to vulnerable populations. We are very grateful to 
the committee's support and leadership in these programs over 
the years.
    In our democracies today, it is more evident than ever that 
disinformation is a persistent reality and a true threat. In 
fact, many experts say there will not be an election in 2020 
that is not impacted by active disinformation. Given this 
threat, we need to mobilize solutions. At Internews, we have 
learned that the most effective investment against 
disinformation is to invest in good information, good, 
accurate, local information. We also need to invest in critical 
thinking. We also need to disincentive the market forces that 
drive some of this disinformation. And finally, we need to hold 
companies and governments to account for their role in what is 
happening here.
    Such trusted relevant local information is life changing in 
places like South Sudan where this picture is from, where we 
see women as journalists and reporters become more deeply 
invested in their communities, become more deeply invested in 
their democracies, when they can have their voices heard.
    Quality news and information is not just essential to 
democracy. It is also a root solution to solving health crises, 
like the one we face today. In fact, today we have journalists 
and support staff members training journalists all across Asia 
on how to better cover the COVID-19 crisis in the Philippines, 
in Thailand, in Indonesia today. We know that during a health 
crisis, fostering trusted lines of communication can change 
attitudes and save lives.
    We seek the power and potential of a digitally-connected 
world, and we appreciate your support to programs that can make 
this a reality. Thank you.
    [The prepared statement of Ms. Bourgault follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Thank you very much. As I said in the 
beginning, I wish we had more time, you do important work. 
Thank you very much for your work and for appearing before us 
today. We look forward to continuing our important 
relationship. Thank you.

                               WITNESSES

STAN SODERSTROM, EXECUTIVE DIRECTOR, KIWANIS INTERNATIONAL
ANUCHA BROWNE, CHIEF ENGAGEMENT OFFICER, UNICEF USA
DANIELLE HEIBERG, ADVOCACY ADVISOR, GLOBAL WATER 2020
    The Chairwoman. Welcome. Our third panel is Mr. Stan 
Soderstrom, executive director of Kiwanis International; Ms. 
Anucha Browne, chief engagement officer of UNICEF USA; and Ms. 
Danielle Heiberg, advocacy advisor for Global Water 2020. Thank 
you. Please proceed. And I thank you for joining us today, and 
your full testimony, as you know, will be entered into the 
record. You will each have 3 minutes, starting with Mr. 
Soderburg. Thank you.

              OPENING STATEMENT BY MR. SODERSTROM

    Mr. Soderstrom. Thank you. Madam Chairwoman and 
distinguished members of the committee, it is an honor to 
testify before the committee today on behalf of the half a 
million members of the Kiwanis family in the United States. We 
appreciate the opportunity to testify in support of the 
Kiwanis-UNICEF Program to eliminate maternal and neonatal 
tetanus, or MNT. We are seeking the support of this committee 
to recommend in fiscal year 2021 the modest sum of $2 million 
for MNT. We also ask that you support the $900 million for 
USAID Maternal and Child Health Account, and the $134 million 
for UNICEF.
    While we are all trying to find solutions to the 
coronavirus at home and abroad, I ask that you keep in mind 
another deadly disease: tetanus. Tetanus is a preventable 
disease that kills one baby every 17 minutes. Once contracted, 
a newborn usually dies within 7 days. Human contact exacerbates 
the baby's pain. A mother's touch hurts, leaving the baby to 
writhe in agony, unheld for days, until he or she dies. In 
2011, Kiwanis launched the Eliminate Project to eliminate MNT 
through a global campaign to save or protect more than 61 
million mothers and their newborns.
    In partnership with UNICEF, Kiwanis is targeting the 
poorest, most underserved women and children on the planet with 
proven and cost-effective interventions. The Kiwanis family is 
committed to privately raising more than $110 million to 
eliminate this disease. I would like to thank the committee for 
your past support in eliminating MNT, which was funded by 
Congress at $2 million fiscal year 2020. And I would like to 
also thank you for your past and continued support for our 
other global health initiative ending iodine deficiency 
disorders.
    I have witnessed firsthand the success of our public/
private partnership to eliminate MNT. In Madagascar, I was 
present to see immunization day at several clinics and villages 
seemingly in the middle of nowhere, and I was amazed to see how 
many mothers and their young children showed up to receive a 
tetanus immunization. In Madagascar, at that time, the 
mortality rate for children under the age of 5 was slightly 
more than 50 deaths for every 1,000 children. That meant for 
the 100 or so children that I saw in a single day, 
approximately 5 would not survive beyond their 5th birthday. 
But because of the Kiwanis-UNICEF-USAID cooperation, these 
children had a much better chance of surviving. Our investment 
there has brought the death rate for neonatal tetanus down to 
less than one death per 1,000 live births.
    Today, 85 infants will die from MNT somewhere in the world. 
Our commitment is to reduce that number to zero. So, Madam 
Chairwoman, as you move forward to some happy years of 
retirement, I ask you to join us in this final push. We 
appreciate your leadership, and we ask you to help us to 
eliminate this terrible disease, helping us to ensure that no 
baby suffers this excruciating 7-day death ever again. Thank 
you.
    [The prepared statement of Mr. Soderstrom follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Thank you. Please proceed.

                OPENING STATEMENT BY MS. BROWNE

    Ms. Browne. Good morning. Chairwoman Lowey, Ranking Member 
Rogers, and members of the subcommittee, on behalf of the more 
than 10 million Americans who have support UNICEF's work, I 
appreciate this opportunity to testify before the subcommittee. 
I respectfully ask the subcommittee to provide $134 million as 
the U.S. government's fiscal year 2021 voluntary contribution 
to UNICEF's core resources, the same amount provided by 
Congress for this fiscal year.
    UNICEF is at the forefront of addressing crises threatening 
the lives and safety of children. UNICEF is already working on 
efforts related to the coronavirus and has been instrumental in 
helping children and mothers combat Ebola in Africa. UNICEF is 
there for the most vulnerable children in humanitarian crises 
with therapeutic foods, emergency water, and sanitation, 
critical health and interventions, child-friendly spaces, 
education, and much more. UNICEF can only respond to these 
lifesaving, and sometimes dangerous, situations if it has the 
core resources to prepare for emergencies.
    I can't express enough my appreciation for this 
subcommittee's leadership in maintaining American support for 
international development and humanitarian programs and for 
UNICEF. Thanks to the strong support from the U.S. Congress for 
UNICEF and for child survival, the world has seen remarkable 
progress. The global under-5 mortality rate declined by 59 
percent between 1990 and 2018, and during this time, 31 low- or 
lower-middle income countries cut their under-5 mortality by at 
least two-thirds, proving that we can make progress anywhere. 
We still have a long ways to go. Today, 15,000 children still 
die every day from mostly preventable causes.
    Madam Chairwoman, I am still in denial about your planned 
retirement, and one of your legacies that you will leave is 
your passion and emphasis for basic education. Education is 
what helps protect the future of each child, and it also brings 
a sense of normalcy and safety that children need to recover 
from traumatic situations. This is a picture of a young girl 
named Rokiyatou, and she fled her home in Mali because of 
violence, and she ended up in a camp in a sports stadium. And 
UNICEF set up a tent to help displaced children continue their 
education. Rokiyatou says she wants to be a school principal, 
and we want to make sure that she is able to realize that 
dream.
    We are proud of UNICEF's partnership with Kiwanis to fight 
maternal and neonatal tetanus and with Rotary International to 
fight polio. We believe that it is possible to end preventable 
child deaths globally in a generation. A commitment of $134 
million as the U.S. contributions to UNICEF's core resources in 
fiscal year 2021 will help that become a reality. Thank you.
    [The prepared statement of Ms. Browne follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. By the way, I want to thank you all, if 
each of you could inform us for over an hour, if not longer, of 
the important work you are doing. So please be don't be 
insulted if you hear a little tap-tap, but we are limited in 
time, and I thank you again for proceeding. Please.

                OPENING STATEMENT BY MS. HEIBERG

    Ms. Heiberg. Thank you to the members of the committee for 
inviting me to speak today. With coronavirus dominating the 
news, the importance of handwashing is front and center as one 
of the only effective ways of preventing infection. Both CDC 
and the U.S. Surgeon General have touted the importance of 
washing your hands. WASH, which is access to safe drinking 
water, sanitation, and hygiene, including handwashing, is one 
of the first lines of defense in slowing the spread of most 
infectious disease outbreaks, such as the flu and Ebola, as 
well as protecting communities, patients, and frontline health 
workers over the long term.
    During the Ebola epidemic in West Africa, the lack of 
access to safe WASH and healthcare facilities and communities 
was a factor in the inability to contain the disease. And lack 
of WASH in many healthcare facilities put patients seeking 
routine services, such as newborn care, at risk of infection. 
USAID investments in WASH are pivotal to strengthening global 
health security efforts by providing access to water, 
sanitation, and hygiene services in communities, schools, and 
healthcare facilities. WASH is a critical component of a strong 
health system, and must be part of plans to prevent, detect, 
and respond to outbreaks.
    In addition, these investments help to promote handwashing 
and proper disposal of waste. WASH also plays a role in 
combating the rise of superbugs or drug-resistant diseases by 
preventing infections and lowering the need to use antibiotics. 
In addition, WASH programs advance other U.S. priorities, 
including maternal and child health, neglected tropical 
diseases, nutrition, and economic development. However, 2.2 
billion people don't have access to safe drinking water, 4.5 
billion people are without access to adequate sanitation, 1 in 
4 healthcare facilities lack access to water, and over 30 
percent of schools don't have clean water or a decent toilet.
    We thank the Congress for its bipartisan support for these 
WASH programs. Current funding in fiscal year 2020 is $450 
million, and for fiscal year 2021, we are recommending an 
overall topline amount of $57.4 billion for the State and 
Foreign Operations bill, and $500 million for water in all 
accounts at USAID. The funding could provide long-term safe 
WASH services to an additional half a million people, help 
prevent infectious disease outbreaks, and provide WASH in 
healthcare facilities, communities, and schools, and amplify 
the impact of USAID's cross-sectoral work related to WASH, 
including global health, nutrition, livelihoods, economic 
development, gender, and food security.
    Making investments in WASH now is critical to strengthening 
health systems as well as putting in place preventative 
measures that can slow the spread of the next novel 
coronavirus, Ebola outbreak, or the yet-to-be-identified 
disease X. Former Senator Bob Corker said it best: ``We need to 
make every dollar of our limited foreign aid resources count by 
addressing problems where we can have a real impact on people's 
lives.'' By focusing our efforts on clean water and sanitation, 
we can save lives, improve public health, and provide stability 
in vulnerable communities throughout the world. Thank you.
    [The prepared statement of Ms. Heiberg follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Thank you to the entire panel. And, again, 
please don't be insulted if we are not going to follow up with 
many questions, but we appreciate your work. Thank you.

                               WITNESSES

HOWARD KOHR, CEO, AIPAC
LIZ SCHRAYER, PRESIDENT AND CEO, U.S. GLOBAL LEADERSHIP COALITION
NATASHA BILIMORIA, DIRECTOR OF U.S. STRATEGY, GAVI, THE VACCINE 
    ALLIANCE
    The Chairwoman. Our fourth panel is Mr. Howard Kohr, CEO of 
AIPAC; Ms. Liz Schrayer, president and CEO of the U.S. Global 
Leadership Coalition; Ms. Natasha Bilimoria, director of U.S. 
Strategy for GAVI, the Vaccine Alliance. Thank you all. Please 
proceed.

                 OPENING STATEMENT BY MR. KOHR

    Mr. Kohr. Good morning, Chairwoman Lowey. I am joined here 
today by my colleagues, Ester Kurz, Doug Saxon, and Daniel 
Gray. Chairwoman Lowey, Ranking Member Rogers, and members of 
the subcommittee, I would like to first express my heartfelt 
thanks for your steadfast support of the U.S.-Israel 
relationship. I especially want to commend the chair and 
ranking member for building such a committed bipartisan to 
advance America's national interest. It is under your 
leadership that U.S. aid to Israel continues to enjoy broad 
support from Democrats and Republicans, a fact that we never 
take for granted and we greatly appreciate. Chairwoman Lowey, 
we will sorely miss your leadership in the coming years ahead.
    As you well know, with growing instability, chaos, and 
tension in the Middle East, one fact remains reliably true: 
Israel remains America's closest and most capable ally, an 
anchor of stability in a dangerous region. Today both Israel 
and the United States face an unprecedented array of evolving 
threats fueled by Iranian aggression. Tehran grew more 
belligerent over the past year, attacking U.S. military 
personnel and equipment, targeting Israel, and striking crucial 
oil installations in Saudi Arabia. Hezbollah stepped up its 
anti-Israel activities, digging attack tunnels and building 
factories in Lebanon to produce precision-guided munitions. In 
the Gaza Strip, Hamas and Palestinian Islamic Jihad carried out 
about 1,500 rocket attacks in addition to launching what are 
normally children's toys, kites and balloons. They laden them 
with explosives targeting Israeli civilians.
    Israel's unique efforts to counter Iranian aggression has 
proven more important than ever, significantly advancing U.S. 
interests in this critical region. However, confronting these 
growing threats has forced Israel to spend significantly more 
on its defense. To help our Israeli ally, AIPAC strongly urges 
the subcommittee to approve the $3.3 billion in security 
assistance to Israel envisioned by the 2016 U.S.-Israel 
memorandum of understanding. Our security assistance helps 
Israel preserve its qualitative military edge and limits the 
chances for war.
    I also urge you, as you have always previously done, to 
reject the suggestions of some that America should use our 
security assistance as leverage to force Israeli policy 
changes. Jeopardizing our closest regional ally's capability to 
defend itself would undermine U.S. interests and credibility. 
Presidents Bill Clinton, George W. Bush, and Barack Obama each 
signed successive 10-year memorandums of understanding on 
security assistance with Israel without imposing any political 
conditions because they understood how important the perception 
of our reliability was for promoting peace and deterring war.
    Finally, I need to report to this subcommittee that Israel 
continues to be unfairly singled out time and again in 
international institutions like the United Nations and the 
International Criminal Court. This year, a politicized 
International Criminal Court has taken steps to advance cases 
against American and Israeli nationals in moves that insult our 
Nation and seek to delegitimize Israel. I urge your continued 
steadfast opposition to such biased attacks with your 
consistent efforts to encourage the Palestinians to return to 
the negotiating table. Direct bilateral Israeli-Palestinian 
talks remain the best way to achieve a durable two-state 
solution.
    Thank you again for your continued leadership and support 
in these very difficult and uncertain times.
    [The prepared statement of Mr. Kohr follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Thank you. Ms. Schrayer.

               OPENING STATEMENT BY MS. SCHRAYER

    Ms. Schrayer. Thank you. Thank you, Congresswoman Lowey, 
Chairman Lowey, Ranking Member Rogers. Thank you for the 
opportunity to testify and for the extraordinary example the 
two have led on bipartisan leadership. Our nationwide coalition 
of businesses, farmers, veterans, faith, and NGO leaders were 
truly grateful to this committee for your unwavering support 
for America's development of diplomacy programs and opposing 
dangerous cuts.
    The USGLC was founded 25 years ago. The Cold War had ended. 
Some citizens believed we could reap a peace dividend in 
questioning America's role in the world, and a few members even 
bragged that they didn't own a passport. And it was a stark 
contrast from the Cold War when President Reagan, under his 
leadership, international fair spending as a percentage of our 
GDP reached an all-time high of .6 percent. I don't know if you 
can read this, but today we live, as we know, in a far more 
complex and dangerous world, and yet that percentage of 
spending is down and cut in half.
    Now, I want to argue that we have to seriously look at 
reversing the trend of how we spend and protect America's 
interests because I fear if we merely stay the course, we do it 
at our own peril. And one need to only look at the current 
coronavirus. It is no surprise that our military, our top 
military leaders are speaking out. Recently, former chairman of 
the Joint Chiefs of Staff, Admiral Mike Mullen, wrote to 
Congress, and he said, ``The urgent and unpredictable threats 
our Nation face have only grown.'' He concluded and continued: 
``This is a moment when more investment in diplomacy and 
development is needed, not less.'' Now, thanks to this 
committee, that 1 percent of the Federal budget for our 
civilian tools is one of the most effective investments that is 
really delivering results for the American people. A recent 
study was done that showed that for every 1 dollar invested in 
prevention saves $16 in response costs.
    President Reagan understood that peace through strength, 
that it meant investing in development and diplomacy alongside 
defense. I believe that Reagan was right then, and he certainly 
is right today. So I want to urge you to support two things. 
First, to restore the funding for the fiscal year 2021 State, 
Foreign Operations bill to no less than the most recent 
highwater mark, and that takes us to a fiscal year 2017 enacted 
level of $57.4 billion. But I also want you to think of this, 
second, to begin to restore that trend, reverse the trend so 
that we can see the international affairs cut, not less, by 
more than half as a percent of GDP. And I can pledge that our 
coalition is prepared to work with you to help do that.
    Thank you for the chance to testify.
    [The prepared statement of Ms. Schrayer follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Thank you. Good to see you again.

               OPENING STATEMENT BY MS. BILIMOIRA

    Ms. Bilimoria. Thank you. Chairwoman Lowey, Ranking Member 
Rogers, and the subcommittee staff, thank you so much for your 
leadership and the opportunity to appear today, and for your 
strong support of GAVI, the Vaccine Alliance.
    I respectfully request that the committee approve a U.S. 
contribution of $290 million for fiscal year 2021 to GAVI. This 
contribution is part of an initial 4-year, $1.16 billion 
commitment for the years 2020 to 2023, which was announced by 
USAID on February 10th. I also ask that you provide $900 
million for USAID's Maternal-Child Health Account.
    GAVI's mission is to save lives, reduce poverty, and 
protect the world against threats of epidemics. GAVI turned 20 
this year and has helped immunize an entire generation, over 
760 million children, and prevent 13 million deaths. These 
milestones have dramatically increased immunization rates in 
low-income countries and helped cut child mortality by almost 
50 percent. But these gains we have made are, in fact, fragile, 
and as we prepare for our next strategic period from 2021 to 
2025, our goals remain ambitious. And over the next 5 years, we 
aim to immunize an additional 300 million children, saving up 
to 8 million lives. We will expand the availability of 
lifesaving vaccines to communities that systematically miss out 
on the most basic vaccines and build better health systems to 
deliver them.
    Ultimately in this period, GAVI will provide the most 
vulnerable in the world the most complete package of protection 
ever. And to accomplish these goals, GAVI is seeking a total of 
at least $7.4 billion of additional funding from all of its 
donors as part of its third replenishment, which will occur in 
June and is being hosted by the government of the United 
Kingdom.
    It is important to understand that sustainability and 
country ownership are at the heart of our model. More than 
ever, countries themselves are allocating an even greater 
proportion of their domestic resources to immunization 
programs. We expect their co-financing share to go up even 
further in the next period to a total of $3.6 billion in 2025, 
more than doubling the amount that they are giving now, and 
making this the largest investment in immunization on their end 
in history. Fifteen countries have already transitioned. We 
expect three more to do so by the end of the year. And with 
continued partnership with the U.S. and successful 
replenishment in June, we will ensure another 10 will do so.
    Vaccines are the most cost-effective and effective ways to 
prevent epidemics on our crucial component of any effective 
global health security strategy. COVID-19 serves as a very 
important reminder that infectious diseases know no border, and 
the world must be prepared for the inevitability of new 
pathogens emerging. Investing in GAVI helps protect the world, 
providing a global health insurance policy against fast-
traveling epidemics and other diseases where systems are weak. 
These investments to strengthen immunization systems are the 
first line of it defense, and strong routine immunizations 
protect against the spread of infectious disease.
    GAVI also supports vaccine stockpiles of cholera, yellow 
fever, meningitis, and Ebola, and since 2006, we have protected 
140 million. But we can't do it alone, and we hope that the 
U.S. investment in global health and larger foreign assistance 
is essential to keeping people healthy and protecting emerging 
threats. The U.S. support ensures progress in GAVI-supported 
countries and, in turn, makes sure that the world is safer 
overall.
    The Chairwoman. Thank you.
    Ms. Bilimoria. Thank you.
    [The prepared statement of Ms. Bilimoria follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Thank you very much. Again, all of our 
panelists are sharing such important information, and I wish we 
could sit here for many more hours. Thank you.

                               WITNESSES

JESSE YOUNG, CLIMATE CHANGE POLICY LEAD, OXFAM AMERICA
CONOR SAVOY, EXECUTIVE DIRECTOR, MODERNIZING FOREIGN ASSISTANCE NETWORK
KATE WALL, SENIOR LEGISLATIVE MANAGER, INTERNATIONAL FUND FOR ANIMAL 
    WELFARE (IFAW)
    The Chairwoman. Welcome. Our fifth panel is Mr. Jesse 
Young, the climate change policy lead for Oxfam America; Mr. 
Conor Savoy, executive director of the Modernizing Foreign 
Assessment Network; and Ms. Kate Wall, senior legislative 
manager of the International Fund for Animal Welfare. Thank you 
all for joining us today. Your full testimony will be placed 
into the record. You will each have 3 minutes, starting with 
Mr. Young, then Mr. Savoy, and finally Ms. Wall, and don't 
hesitate to summarize your statement. Thank you again for 
appearing before us today.

                 OPENING STATEMENT BY MR. YOUNG

    Mr. Young. Thank you, Chairwoman Lowey, Ranking Member 
Rogers, Ms. Lee, Ms. Frankel. Thanks for taking the time here 
to solicit public feedback. I would like to speak briefly about 
appropriations for international environment and conservation.
    For decades, members of both parties have supported both 
bilateral and multilateral funding to help protect and better 
preserve the environment. These programs enable developing 
countries to care for our shared global ecosystem while 
strengthening American alliances, preventing conflicts, and 
bolstering national security. I should also note that the 
American public is more attuned to the importance of these 
issues than ever before. There is so much polling on this if 
you would like to hear about it at a later date.
    The omnibus appropriations package for the current fiscal 
year provided robust and increased support for these important 
programs. I would like to thank the committee for their hard 
work in that effort and express real gratitude on behalf of our 
committee, especially to Jean Kwon, Erin Kolodjeski, and Liz 
Leibowitz on your staff, who have been great partners. In 
particular, the fiscal year 2020 bill language supporting 
adaptation, renewable energy, and sustainable landscapes is 
very strong and will help save lives, build resilience, and 
protect the vulnerable.
    As members of the subcommittee know, American investments 
in these programs help leverage substantial matching 
commitments from other governments, meaning that our spending 
has doubled many times over. Indeed, every American dollar 
invested in the Global Environment Facility generates another 
$40 from countries and other partners. In the energy arena, 
investment in developing country energy infrastructure is 
expected to exceed $30 trillion over the next 25 years. A small 
investment of U.S. funds now can help shape that enormous 
market for decades to come.
    In fiscal year 2021, we hope you can find greater support 
for all these accounts. In particular, we hope that the 
subcommittee can increase the adaptation program line to $192 
million and the renewable energy program line to $194 million, 
an increase of $15 million for both. Full funding of $10 
million for the voluntary U.S. contributions to the U.N. 
Framework Convention on Climate Change and the 
Intergovernmental Panel on Climate Change is also essential as 
the U.S. remains an active and important contributor to both 
bodies under the Trump administration.
    Additionally, we hope that the subcommittee can provide 
additional direction to State and USAID by instructing them to 
fund both the Least Developed Countries Fund, one of the 
premiere multilateral resilience funds which the U.S. has 
previously supported, as well as the Climate and Clean Air 
Coalition, a pioneering, voluntary effort to reduce pernicious 
air pollutants. Finally, we believe it remains vital for the 
U.S. to meet its existing pledge to the Green Climate Fund by 
providing $500 million or more in this fiscal year. Forty-seven 
countries have now pledged $18 million to the GCF, including 
nine developing nations, like Indonesia, Chile, Mexico, and 
Colombia. Additionally, the GCF is leveraging an additional $15 
billion in non-GCF co-financing, over $2.67 for every $1 the 
fund provides.
    Thanks so much.
    [The prepared statement of Mr. Young follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Well, thank you. Please proceed.

                 OPENING STATEMENT BY MR. SAVOY

    Mr. Savoy. Chairwoman Lowey, Ranking Member Rogers, and 
members of the subcommittee, on behalf of the Modernizing 
Foreign Assistance Network, thank you for the opportunity to 
testify on the fiscal year 2021 State, Foreign Operations, and 
Related Programs appropriations bill. I also wish to commend 
your steadfast leadership and support of a strong and effective 
international affairs budget.
    For 2 decades, Congress and, in particular, this 
subcommittee has played a key role in advancing significant 
reforms to make U.S. assistance more efficient, effective, and 
transparent. MFAN has six recommendations that build on that 
success. Our full request is included in the testimony we 
submitted for the record, but I will summarize them here today.
    We recommend that the committee once again consider a 
modest increase of 5 percent in USAID's operating expenses. We 
know that in a resource-constrained environment, it is 
difficult to prioritize this, but we also know the consequences 
of not investing in USAID's capabilities. In the 1990s, USAID 
saw its operating expenses slashed while gaining new 
responsibilities, and, in essence, we asked them to do more 
with less. We saw the result in the struggles that USAID 
experienced in ramping up operations in Afghanistan and Iraq. 
This committee has supported significant increases to the 
operating expenses budget. Now is not the time to turn back on 
these reforms.
    Another challenge that has negatively impacted the 
effectiveness of our foreign assistance is the uncertainty 
caused by disruptions in the budget. This uncertainty distracts 
from the important work of our foreign assistance programs. It 
undermines the effectiveness of critical programs designed to 
protect our national security and improve millions of lives 
across the world. We respectfully urge the subcommittee to 
again include language aimed at minimizing the threat of budget 
delays and disruptions.
    Finally, the United States International Development 
Finance Corporation deserves our support as it stands up. The 
DFC has powerful new tools and a mandate that will allow it to 
achieve greater development impact while also supporting U.S. 
strategic objectives. Focusing on less developed countries will 
require additional investment in operating expenses and credit 
subsidy. It does not, however, require the $700 million the 
administration requested. If equity is scored on a fair market 
basis and not for dollar for dollar, MFAN believes that $165 
million is sufficient for the program account. Our 
recommendations today would contribute to ensuring that the DFC 
achieves the ambitious goals set by Congress, that USAID 
transformation is successfully completed, and that foreign aid 
is implemented efficiently with minimal disruption and in 
accordance with congressional intent.
    Thank you for the time today. I thank you for the vital 
role you have all have played in modernizing foreign 
assistance, and a special thank you to Chairman Lowey for your 
leadership all these years. Thank you.
    [The prepared statement of Mr. Savoy follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Thank you for your testimony. Ms. Wall.

                 OPENING STATEMENT BY MS. WALL

    Ms. Wall. Chairwoman Lowey, Ranking Member Rogers, Ms. Lee, 
Ms. Frankel, thank you so much for the opportunity to testify 
here today on behalf of the International Fund for Animal 
Welfare. IFAW has programs in more than 40 countries around the 
world protecting animals and habitats, by responding to 
disasters, working with communities to innovate solutions to 
human wildlife conflicts, and partnering with USAID, the 
Department of State, and community actors to combat illegal 
wildlife trafficking.
    This last year has brought ever-more disturbing news about 
the state of our natural world. Trafficking in wildlife and 
wildlife parts remained the fourth most lucrative criminal 
enterprise globally, with an estimated annual revenue of $20 
billion. And if you add in illegal logging and fishing, that 
number skyrockets to $1 trillion or more.
    2019 was the second hottest year on record. In May, the 
Intergovernmental Science Policy Platform on Biodiversity and 
Ecosystem Services, an international scientific body, released 
a report warning that 1 million species are at risk of 
extinction due to human activities. And that was before 
changing climate conditions in Australia wreaked havoc in the 
form of catastrophic wildfires, killing an estimated more than 
1 billion animals in New South Wales alone. Ocean temperatures 
rose at record-setting rates, and a novel coronavirus emerged 
from wildlife markets in China to threaten global health. I 
would note that that is not the first novel coronavirus to 
emerge from wildlife markets. SARS emerged from the same 
markets, which were temporarily closed in the wake of that 
global pandemic.
    So in the wake of these troubling trends, we are requesting 
increases for USAID biodiversity programs to $330 million, up 
from $315 million in fiscal year 2020; USAID's sustainable 
landscape programs to $140 million, up from $135 million in 
fiscal year 2020; continuing to fund the Global Environment 
Facility at our promised $139.5 million a year; and increases 
of $10 million to the U.S. State Department and USAID wildlife 
trafficking programs at $110.6 million.
    A healthy environment is the foundation of all the 
important programs we have been hearing about here today, and 
the conservation programs I named are critical to countering 
troubling trends globally, and ensuring the healthy 
biodiversity and ecosystems that, in turn, promote global 
stability and protect human health, both around the world and 
here at home. The requested funds are necessary to confirm and 
expand their important work, and I thank you again for the 
opportunity to testify here in their support today.
    [The prepared statement of Ms. Wall follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Thank you all do important work. If we had 
additional time, we could have additional discussion. Thank you 
all.

                               WITNESSES

JAMIE BAY NISHI, DIRECTOR, GLOBAL HEALTH TECHNOLOGIES COALITION
DAN WEST, SENIOR ADVOCATE, NATURAL RESOURCES DEFENSE COUNCIL
WILLIAM (BILL) O'KEEFE, EXECUTIVE VICE PRESIDENT FOR MISSION, 
    MOBILIZATION, AND ADVOCACY, CATHOLIC RELIEF SERVICES
    The Chairwoman. Welcome. Jamie Bay Nishi, director of the 
Global Health Technology Coalition; Mr. Dan West, senior 
advocate of the Natural Resources Defense Council; and Mr. Bill 
O'Keefe, executive vice president of Catholic Relief. I want to 
thank you all for joining us today. Your full testimony will be 
placed in the record. You each will have 3 minutes, starting 
with Ms. Nishi, then Mr. West, and finally Mr. O'Keefe. Please 
feel free to summarize your statement, and we will withhold any 
questions until all your statements are completed. Thank you 
very much.

                 OPENING STATEMENT BY MS. NISHI

    Ms. Nishi. Members of the committee, thank you for the 
opportunity to testify on fiscal year 2021 appropriations for 
global health programs at USAID and the State department, and 
thank you for your committed leadership to global health. I 
speak on behalf of the Global Health Technologies Coalition, a 
group of 30 organizations advancing policies to accelerate the 
creation of new drugs, vaccines, diagnostics, and other tools 
to bring healthy lives within reach for all people.
    To this end, we strongly encourage the committee to 
continue its established support for global health research and 
development by, first, sustaining U.S. investment in global 
health research and product development, by rejecting fiscal 
year 2021 cuts proposed by the administration, and supporting, 
at minimum, level funding from fiscal year 2020 for each 
disease or population-specific program under the USAID and 
State department global health accounts; second, instructing 
USAID to prioritize R&D within each of the disease and 
condition areas under their global health programs account, and 
requiring agency leaders to develop a whole-of-government 
global health R&D strategy to ensure that U.S. investments are 
efficient, coordinated, and streamlined; third, calling for the 
expansion of the annual report on USAID's health-related 
research and development strategy, and for the public release 
of the annual report required by the Global Health Innovation 
Act, both vital for transparency and oversight.
    The recent outbreak of COVID-19 has demonstrated that, once 
again, we do not have all the tools needed to prevent, 
diagnose, and treat many neglected and emerging infectious 
diseases, a reality we also saw during the Zika epidemic in 
West Africa and Ebola epidemic just a few years ago. Yet the 
impact of the ERVEBO Ebola vaccine on the now waning epidemic 
in the DRC demonstrates the power that having the right tool at 
the right time to respond to a global health emergency is 
critical. This new vaccine, developed with critical U.S. 
government funding, is 97.5 percent effective, a game changer 
for this and future outbreaks.
    As the only U.S. agency with a mandate to focus on global 
health and development, USAID is uniquely positioned to support 
end-to-end development of new global health technologies. 
USAID's global presence and unique understanding of the needs 
of patients in different contexts is key to developing health 
innovations that are transformative on the ground. However, 
there are few dedicated funding streams expressly supporting 
global health R&D at USAID. Most investment decisions are made 
at the program level based on overall funding allocations for 
each disease or population-specific health area. Funding cuts 
would further jeopardize the Agency's ability to balance 
current programming demands with new drugs, vaccines, 
diagnostics, and other tools.
    Diseases know no borders, and, as we have seen with COVID-
19, health crises abroad can quickly become health crises at 
home. It is imperative that we sustainably invest in R&D for a 
broad range of neglected infectious diseases so we have tools 
ready to go when we need them.
    On behalf of members of the Global Health Technologies 
Coalition, I would like to extend my gratitude to this 
committee for the opportunity to testify and for your continued 
support of these lifesaving investments.
    [The prepared statement of Ms. Nishi follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Thank you. Mr. West.

                 OPENING STATEMENT BY MR. WEST

    Mr. West. Chairwoman Lowey, Ranking Member Rogers, and 
representatives of the committee, thank you for providing this 
time for public input on fiscal year 2021 appropriations. The 
Natural Resources Defense Council, NRDC, supports robust 
Federal funding for programs that further American leadership 
abroad, and ensure real progress on addressing critical 
international environmental challenges. Congressional 
appropriators have a bipartisan record of supporting vital 
international, environmental, and clean energy programs, so we 
urge you to continue this tradition and step up the level of 
commitment to these investments for next year.
    We ask that Congress restore funding of at least $500 
million to the Green Climate Fund. It is a smart investment 
that creates opportunities for American companies and workers 
to tap into the $60 trillion global clean energy market. Many 
American companies export their technologies and innovations 
around the world, including to projects that are enabled by the 
Green Climate Fund. Honoring America's commitment to the Green 
Climate Fund is critical to holding accountable other major 
emitters, like China and India, for doing their part to address 
the climate crisis.
    We also request the following funding levels for these 
bilateral assistance programs: $140 million for sustainable 
landscapes, $194 million for renewable energy, and $192 million 
for adaptation. They are all smart investments to strengthen 
U.S. alliances and prevent instability overseas by helping 
developing countries become more resilient. We were pleased to 
see these programs receive strong fiscal year 2020 funding. For 
the first time ever, the Renewable Energy and Adaptation 
Accounts were included in the base bill.
    NRDC asks Congress to build on that progress in fiscal year 
2021 by maintaining robust funding for these accounts, as well 
as providing additional funding where possible, including fully 
funding the Global Environment Facility at $139.5 million to 
continue our Nation's support for protecting forests and 
endangered species around the world, protecting people from 
harmful chemicals and waste, and promoting healthy 
international waters; providing at least $10 million for 
maintaining United States' financial commitments to the United 
Nations Framework Convention on Climate Change, an 
intergovernmental panel on climate change, to reassert American 
leadership in international climate change forums; and boosting 
the Montreal Protocol's Multilateral Fund to $37 million. It 
helps developing countries meet their commitments to phase out 
ozone-destroying and other chemicals, while helping develop 
markets for American companies to export these technologies.
    To unlock the full market potential for American innovation 
and clean technologies, appropriators should remove the rider 
blocking funding for U.S. international development 
institutions to finance clean energy projects abroad, and 
oppose any limitations that get in the way of driving climate 
solutions. At the same time, appropriators should ensure that 
all U.S. investments are helping to combat climate change, 
biodiversity loss, and other environmental challenges. Scarce 
U.S. investments should avoid digging us deeper into a hole on 
these challenges.
    We look forward to working with you to help ensure that 
fiscal year 2021 appropriations provide expanded financing to 
help address critical environmental challenges. Thank you.
    [The prepared statement of Mr. West follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Thank you. Mr. O'Keefe.

                OPENING STATEMENT BY MR. O'KEEFE

    Mr. O'Keefe. Chairwoman Lowey, Ranking Member Rogers, and 
Ms. Lee, Catholic Relief Services is the international relief 
and development agency of the Catholic community in the United 
States. We operate in more than 100 countries, partner with 
2,000 organizations, and serve more than 136 million people. 
CRS respectfully urges Congress to increase the State and 
Foreign Operations budget to $57.4 billion and protect poverty-
reducing humanitarian and development accounts. I will use my 
time today, though, to talk about how the committee can remove 
barriers along the journey to self-reliance.
    CRS, most members of Congress, and the American people 
share common goals: alleviating suffering, ending poverty, 
hunger, and disease, and cultivating just and peaceful 
societies. Too often, we lose sight of these long-term goals in 
favor of short-term objectives. The central lesson of CRS' 75-
plus year history is that development is only sustainable and 
effective when locally led. This hard-won lesson is consistent 
with the Catholic principle of subsidiarity. Those closest to a 
challenge best understand it and should play the central role 
in solving it. Effective development assistance, therefore, 
requires a steadfast commitment to enabling and building 
sustainable local leadership.
    I have five specific recommendations for U.S. assistance to 
advance the kind of local leadership foundational for any 
society to become more self-reliant. One, localization goes 
beyond implementation to participation and actual leadership. 
It is about who gets a seat at the table. Successful 
localization requires investment in capacity, including the 
boring systems of H.R., finance, and fundraising. Three, 
multiyear flexible funding mechanisms are critical for success 
in capacity building. Four, risk management must be shared, and 
five, faith-based organizations and leaders are critical actors 
in the localization process.
    CRS' PEPFAR-funded Outcomes for Children and Youth Project 
in Uganda demonstrates well how all these principles are able 
to both graduate households out of the program support and 
build the capacity of service providers. These organizations 
are critical for sustaining long-term benefits, and thanks to 
this partnership, one of our partners already receives direct 
PEPFAR funding.
    Finally, if we want to help societies become more self-
reliant, we need to avoid unforced errors. Budget delays, 
budget uncertainty, bureaucratic blockages, and unjustified 
termination of programs interrupt the journey to self-reliance 
and undermine U.S. interests. Vulnerable communities across the 
world are further away from our shared goals because of these 
hindrances to U.S. foreign assistance.
    Chairwoman Lowey, Ranking Member Rogers, thank you so much 
for this opportunity and for your commitment to humanitarian 
and development assistance. Your leadership cannot be 
understated.
    [The prepared statement of Mr. O'Keefe follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. I want to thank the panel again. Sorry our 
time is limited. I would like to have a much longer 
conversation, but we appreciate your very good work. Thank you.

                               WITNESSES

DAFNA RAND, VICE PRESIDENT, MERCY CORPS
JORDIE HANNUM, EXECUTIVE DIRECTOR, BETTER WORLD CAMPAIGN
    The Chairwoman. Our seventh panel is Ms. Dafna Rand, vice 
president of Mercy Corps; Mr. Jordie Hannum, executive director 
of the Better World Campaign. And we appreciate your joining us 
today. Your full testimony will be placed in the record. You 
each will have 3 minutes, starting with Ms. Rand, then Mr. 
Hannum. Don't hesitate to summarize your statement. We 
appreciate your being here today.

                 OPENING STATEMENT BY MS. RAND

    Ms. Rand. Good morning. Thank you, Chairwoman Lowey and 
Ranking Member Rogers, and members of this committee, and your 
staff for all that you have done to build a safer, more 
prosperous, and just world.
    It is the beginning of the 3rd decade of this millennium, 
and global trends present a paradox. Poverty alleviation 
programs have brought tens of millions into the middle class, 
out of poverty in the past 2 decades, and yet progress is 
stalling in certain key geographic areas. In these hotspots, 
local, national, and international conflicts converge. 
Governance is weak, corrupt, or absent, and economic resources, 
including the profits from natural resources, are inaccessible 
or siphoned off by the elite. The poorest of the world's poor 
now reside in these contexts, in these geographies, and these 
are the areas that also tend to be critical to their pursuit of 
U.S. national security objectives.
    My team, nearly 6,000 teammates around the world in 43 
countries, Mercy Corps' global team, work in these areas. On 
behalf of these teammates, who are working in these really 
tough spots around the world, I come here today and urge this 
subcommittee to fully fund the State, Foreign Operations 
appropriations bill at $57.4 billion.
    U.S. foreign assistance, as well as the operating budgets 
for USAID and the U.S. State Department, are more critical than 
ever. The hollowing out of these institutions has directly 
weakened U.S. influence. The budget that you oversee in this 
subcommittee offers the foundations for diplomats and for aid 
workers working in increasingly insecure environments. They are 
responding and managing global challenges, like pandemics, 
civil conflicts, terrorism, environmental degradation, and 
cyber risks.
    In light of the trends that I have described, I would like 
to focus on two root causes that we see in that context and 
then conclude with that. I would like to talk about the root 
causes of poverty, displacement, and vulnerability, namely 
persistent conflict and climate change. First, there are 
550,000 civilians dying every year due to global conflict. In 
2019, Congress passed the Global Fragility Act. The law 
reorients U.S. foreign policy and assistance to address the 
root causes of violence and conflict, and we now request report 
language from this subcommittee to fully implement the law. In 
particular, we request that this committee's report language 
specify $50 million for the Complex Crises Fund, $200 million 
for the Prevention and Stabilization fund, $25 million for the 
Multi-Donor Global Fragility Fund, and legislative report text 
to ensure that a substantial portion of the Complex Crises Fund 
and the Prevention and Stabilization Fund is used for 
implementation of the global fragility strategy.
    And I am happy to talk with your staff afterwards about all 
those recommendations, but for the sake of time, I will 
conclude with the second request for your bill, climate 
adaptation. According to the United Nations, the world will 
require between $140 and $340 billion a year to adapt to global 
climate change. Please ensure that your report language 
specifies that not less than $200 million shall be used for 
adaptation programs, and please request no less than $500 
million dollars to be provided to the Green Climate Fund. Thank 
you so much for your work.
    [The prepared statement of Ms. Rand follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Thank you. Please proceed.

                OPENING STATEMENT BY MR. HANNUM

    Mr. Hannum. Members of the subcommittee, thank you for the 
opportunity to testify in support of the United Nations. Over 
the organization's 75 years, with U.S. support, the U.N. has 
procured vaccines for 860 million children, fed huge numbers of 
people, and helped millions of women overcome pregnancy-related 
risks. It remains the only forum where all countries gather to 
tackle the globe's greatest challenges. In 2020, the U.N.'s 
efforts will be more vital than ever.
    In DR-Congo where great progress has been made in halting 
Ebola, U.N. peacekeepers are protecting healthcare workers. 
They are joined by U.N. World Health Organization staff. Of 
course, WHO personnel are also responding to the coronavirus 
where they are collecting data, sharing information and 
diagnostic tests, and trying to prevent infections from taking 
root in countries with weak health systems, which 82 percent of 
Americans say is critical in a new poll. But one cannot mention 
this important work without also mentioning how that work is 
being undermined by funding shortfalls.
    Since fiscal year 2017, Congress and the administration 
have enforced a 25 percent cap on U.S. contributions to U.N. 
peacekeeping, resulting in $1 billion arrears, much to the 
dismay of many troop-contributing countries; thus, we call for 
$2.6 billion in U.N. peacekeeping. In addition, there have been 
unprecedented administration delays in funding already 
appropriated by Congress. For example, core WHO funding was 
delayed 6 months, impacting its ability to respond to 
emergencies, or look at what is happening in East Africa. In a 
region were 20 million are food insecure, there is a massive 
locust outbreak right now. These pests could decimate the 
entire year's harvest in certain countries. The nearly $70 
million in aid meant for the U.N. Food and Agriculture 
organization from 2018 and 2019 has been delayed. These funds 
could have been repurposed, limiting the damage and long-term 
cost. In fact, if action isn't taken, WFP director, David 
Beasley, said the cost of responding to the impact would be at 
least 15 times higher than the cost of preventing the spread 
now.
    On top of this, the administration is withholding funding 
to the high commissioner for human rights, UNFPA, and have 
started withdrawing from the Paris Agreement. While the United 
States is withdrawing and withholding funding, China is 
aggressively expanding its role. The Chinese now have four of 
U.N.'s 15 specialized agencies. China has also sought to weaken 
U.S.-supported norms on human rights and to reduce funding for 
human rights observers and gender advisors. Beijing is using 
our focus on budget cuts to further their goals.
    The administration's approach is all the more puzzling 
given the appointment of a new envoy to counter Chinese 
influence at the U.N., but the overarching policies of the 
administration are effectively forcing the envoy to fight with 
one hand tied behind his back. If the U.S. continues to 
downgrade its U.N. engagement, we can expect to see a 
corresponding drop in our level of influence which China will 
fill. Preventing such a scenario requires more U.S. engagement, 
not less, and fully funding the U.N. Thank you.
    [The prepared statement of Mr. Hannum follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Thank you for your presentation.

                               WITNESSES

REV. DAVID BECKMANN, PRESIDENT, BREAD FOR THE WORLD
HELEN BOYLE, VICE PRESIDENT OF THE EDUCATION DEVELOPMENT CENTER, BASIC 
    EDUCATION COALITION
FILMONA HAILEMICHAEL, DIRECTOR OF U.S. POLICY, GLOBAL CITIZEN
    The Chairwoman. Our eighth panel is Reverend David 
Beckmann, president of Bread for the World; Ms. Helen Boyle, 
vice president of the Education Development Center; and Ms. 
Filmona Hailemichael, director of U.S. Policy at Global 
Citizen. I want to thank you all for joining us today. Your 
full testimony will be place into the record, and you each will 
have 3 minutes, starting with Reverend Beckmann, then Ms. 
Boyle, and finally Ms. Hailemichael. Please feel free to 
summarize your statement. We will withhold any questions until 
after your have completed your presentation. Please begin, 
Reverend Beckmann.

               OPENING STATEMENT BY REV. BECKMANN

    Reverend Beckmann. Chairwoman Lowey, Ranking Member Rogers, 
Ms. Lee, members of the committee, I am David Beckmann, 
president of Bread for the World, and I am retiring from this 
job this summer. So I have been doing it about 30 years, and I 
mainly want to take this occasion to say thank you to this 
really extraordinary committee.
    When I became president of Bread for the World in 1991, 
about 25 percent of the world's people were hungry. That is 
down to about 10 percent, and a big reason for that is that 
U.S. poverty-focused aid has quadrupled during that period, and 
at the same time we have substantially improved the quality of 
aid. You have kept it up over the last few years on a 
bipartisan basis. There have been continued increases in needed 
poverty-focused programs. And just this month, Congress passed 
a coronavirus supplemental that includes a really strong global 
response to the global pandemic. So thank you.
    The main thing I want to ask of the committee this year is 
an additional $50 million for the nutrition line of the Global 
Health Account. Why? We are really focused on this because the 
world knows better than we did 15 years ago just how much 
damage child malnutrition does, and we also know better how to 
respond to that problem in really-cost effective ways.
    I have had a chance to visit evidence-based programs in 
Ethiopia and Guatemala. You know, the moms come in. There are 
health workers there. The kids are weighed and measured, so if 
the kids are malnourished, they get supplemental food. And 
while the moms wait, they learn things about good nutrition, 
like it is important to wash your hands with soap. And programs 
like that have helped to dramatically reduce child malnutrition 
over the last 10 years. There are 22 million fewer stunted 
children in the world today than 10 years ago.
    This issue unites us. The Global Nutrition Resolution has 
passed the Senate. It has passed the Foreign Affairs Committee, 
the Agriculture Committee. It brings Republicans and Democrats 
together, which we need. And then this year is especially 
important because there will be a big nutrition summit in Tokyo 
in December. And if you put an extra $50 million into this 
account, you will leverage funds from other sources.
    In my written testimony, there is a list of other programs 
that deserve special attention from a hunger poverty 
perspective, and I hope you and your staffs will look at those.
    [The prepared statement of Reverend Beckman follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Reverend Beckman, I want to congratulate 
you on your outstanding career and your retirement. I am going 
to be retiring, too, after 32 years, so. I must say, working 
together with so many of the other people who have testified 
today just warms my heart because we know what really important 
work we have done. So I thank you for appearing before us 
today.
    Mr. Rogers. Madam Chair, to you older people we are 
thankful for both your service and yours, David. You have been 
a great spokesman for this cause, and this morning's 
presentation that you made with no notes is testimony to your 
effectiveness. So Godspeed in your retirement.
    The Chairwoman. Thank you. Please proceed.

                 OPENING STATEMENT BY MS. BOYLE

    Ms. Boyle. Thank you, Chairwoman Lowey, Ranking Member 
Rogers, and members of the subcommittee for inviting me here 
today. My name is Helen Boyle, and I am a longstanding member 
of the Basic Education Coalition, as well as the vice president 
of the International Development Division at Education 
Development Center.
    Since joining EDC in 1991, I have managed many USAID-funded 
programs in the Middle East, North and West Africa, and South 
Sudan, and I also led the development process for EDC's 
signature approach to improving the teaching and learning of 
early grade reading in resource lean environments. Based on my 
deep experience in international education, I can confidently 
attest that the valuable resources provided by this 
subcommittee help identify solutions to development challenges, 
and yield positive results in the lives of program 
beneficiaries, namely children and youth.
    To enhance U.S. foreign assistance efforts and expand 
education programs for children in need, we urge Congress to 
provide $925 million for basic education in fiscal year 2021, 
with at least $800 million provided as bilateral U.S. 
government assistance. Funding for basic education enables 
USAID and implementing partner organizations to work in some of 
the most challenging contexts around the world to increase 
access to education, provide early learners with foundational 
skills, and prepare youth for successful careers. Last year, 
USAID's investments in education reached more than 42 million 
children and youth in over 50 countries. Very impressive.
    Since Chairman Lowey led the passage of the READ Act in the 
fall of 2017, our community has been striving to expand the 
scope and scale of our work in education. Gains in access to 
education and improvements in the teaching and learning of 
early-grade reading skills need to be expanded to reach the 
children who have been left behind, especially those affected 
by crisis and conflict. We also need to ensure that children 
develop the skills needed for the 21st century for the 
workforce, including literacy and numeracy skills, resiliency, 
and critical thinking skills. Likewise, great strides have been 
made to improve gender equality, but we cannot rest until all 
girls receive an equitable, quality education. Finally, in 
extremely disadvantaged environments, our programs must start 
earlier so children enter primary school ready to learn.
    To achieve these ambitious and vital goals, it is 
imperative that Congress fully resource the U.S. government's 
strategy on international basic education, and equip staff at 
USAID with the tools needed to achieve success. Thank you again 
for inviting me to testify before the subcommittee today and 
for your continued support for international basic education.
    [The prepared statement of Ms. Boyle follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Thank you very much. This is a matter near 
and dear to me. I just expect that the important work we are 
doing will continue. I particularly am concerned about 
Afghanistan because we have reached a point where we are over 1 
million girls that are in school, and this has made a huge 
difference. So thank you.
    Ms. Boyle. Thank you.
    The Chairwoman. Please proceed.

             OPENING STATEMENT BY MS. HAILEMICHAEL

    Ms. Hailemichael. Madam Chairwoman, Ranking Member, and we 
thank you for the opportunity to testify before you today. I am 
here on behalf of Global Citizen. We are an advocacy 
organization with 1.5 million supporters in the U.S. We are the 
world's largest movement of action takers and impact makers, 
who are dedicated to ending extreme poverty by 2030. We believe 
that ending poverty will be driven by investments in education, 
nutrition, and health.
    The Chairwoman. Can you speak into the microphone?
    Ms. Hailemichael. Sure. I think it is on, yes. I will get 
closer. We believe that ending poverty will be driven by 
investments in education, nutrition, and health. And by 
investing in these areas, we help ensure that every person has 
the opportunity to learn, grow, survive, and even thrive.
    So starting off with education, I want to, of course, 
acknowledge all of your good work and support for global 
education efforts, and thank you for that commitment. As you 
know, worldwide, 258 million children are still missing out on 
school with many more in class, yet failing to learn the basics 
they need to succeed. From 75 million children forced out of 
school by conflict or crisis, to 130 million girls not even in 
school, there is a learning crisis, and its negative impact 
only multiplies with the years of missed schooling. As such, we 
urge you to fully invest in international basic education.
    In addition to bilateral efforts, we support U.S. 
contributions to the Global Partnership for Education, which 
helps the most vulnerable children in the poorest countries, 
and we also support and appreciate your renewed support for 
Education Cannot Wait, a multi-donor fund that funds safe, 
free, quality education to the millions of children worldwide 
who are refugees, internally displaced, or affected by 
conflict. We ask you to consider, therefore, $975 million for 
basic education to include $125 for global Partnership for 
Education and $50 million for Education Cannot Wait.
    Secondly, I want to discuss nutrition. It is the second 
fundamental building block of human development, yet hunger 
nutrition is the only global development goal in which progress 
has been going backwards. There are 821 million people 
worldwide who go to bed hungry every night, and nearly half of 
all child deaths are because of malnutrition or poor nutrition. 
The silver lining is that rural farmers hold the key to 
reversing this trend, and the International Fund for 
Agricultural Development is investing in rural farmers by 
providing training and resources to help them weather storms, 
grow more food, and create more jobs. IFAD is increasing the 
income and resilience of more than 100 million people through 
effective agricultural development. So we ask you to consider a 
$40 million allocation to IFAD so we can help ensure that the 
poorest farmers are better equipped to help tackle malnutrition 
and hunger.
    And lastly, I just want to thank you for your support for 
maternal and newborn child health programs. I think the world, 
with the U.S.'s support, has made significant progress in 
slowing the rate of preventable maternal and child deaths. Yet 
every year, 5.4 million children under age 5 still die from 
largely preventable deaths, and 300,000 women still die during 
childbirth. As such, we ask you to consider further expanding 
our maternal and child health work with a funding level of $900 
million for fiscal year 2021. And lastly, to say by fully 
funding these accounts, we believe the U.S. would be investing 
in some of the most critical programs that would really help 
break the cycle of poverty for millions of people around the 
world.
    So thank you again for your continued support for foreign 
assistance and for allowing Global Citizen this opportunity to 
testify before you today.
    [The prepared statement of Ms. Hailemichael follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. And thank you to the panel. On behalf of 
all of us, good luck again, David. I am sure we will meet 
again. Thank you.
    Reverend Beckmann. I am sure you and I are both going to 
keep working on this stuff.

                               WITNESSES

NIRANJALI AMERASINGHE, EXECUTIVE DIRECTOR, ACTIONAID USA
DOUG O'BRIEN, PRESIDENT AND CEO, NATIONAL COOPERATIVE BUSINESS 
    ASSOCIATION CLUSA
    The Chairwoman. Our ninth panel is Ms. Niranjali 
Amerasinghe, executive director of ActionAid USA, and Mr. Doug 
O'Brien, president and CEO of the National Cooperative Business 
Association. We thank you for joining us today. Your full 
testimony will be placed in the record, and you each have 3 
minutes, starting with Ms. Amerasinghe, then Mr. O'Brien. And 
please feel free to summarize your statement. Thank you.

              OPENING STATEMENT BY MS. AMERASINGHE

    Ms. Amerasinghe. Chairwoman Lowey, Ranking Member Rogers, 
and members of the subcommittee, thank you so much for this 
opportunity. I am the executive director of ActionAid USA, an 
international development and human rights nonprofit with a 
strong focus on how climate change is impacting everyday people 
in poorer countries. I would like to speak about the critical 
importance of U.S. support for international efforts on the 
environment and climate change.
    For the record, ActionAid USA does not receive any funding 
from the accounts about which we are testifying. ActionAid 
works directly with smallholder farmers and rural communities 
in Asia, Africa, and Latin America, who are most vulnerable to 
climate change, people who ironically are the least responsible 
for causing the climate crisis. As a country that has 
contributed significantly to the greenhouse gas emissions that 
have caused climate change, and with the ability to mobilize 
considerable resources quickly, we believe the United States 
has a moral and legal responsibility to support people living 
in poverty and dealing with a crisis not of their own making. 
To do our fair share to address the root causes of climate 
change, we must provide financial support for poorer countries 
to shift their economies to cleaner pathways.
    To this end, we strongly support prior U.S. appropriations 
for climate mitigation and adaptation programs abroad, and for 
multilateral institutions like the Global Environment Facility 
and the Least Developed Countries Fund. We also strongly 
support appropriations for the Green Climate Fund, or the GCF. 
ActionAid has followed the GCF closely since its inception. It 
has become nearly a $20 billion fund, disbursing resources to 
developing countries around the world to transform economies 
and support communities dealing with climate impacts. It is not 
a perfect institution, none are, but it is the best channel we 
have for ensuring support is flowing to countries that need it 
most. It is independently governed, features strong 
environmental human rights and gender safeguards, and attempts 
to fund truly transformational projects.
    The Obama administration made a $3 billion pledge to the 
GCF, of which $2 billion remains outstanding. We believe the 
U.S. should uphold its promises. More importantly, we believe 
that significant U.S. contributions to the GCF are essential to 
have any hope of keeping climate change to manageable levels. 
We join others in seeking a contribution of at least $750 
million to the GCF in the next fiscal year. This would send a 
strong signal that the U.S. is committed to a global climate 
solution.
    Finally, climate change intersects with many issues that 
are fundamental to the lives and livelihoods of everyone. 
Climate change may have a significant impact on the spread of 
infectious diseases. It also affects efforts to address world 
hunger, which has been on the rise for the last 3 years. We 
strongly support the Global Agriculture and Food Security 
Program, GAFSP, an innovative initiative that delivers funding 
for climate resilient and sustainable agriculture where it is 
needed most. As 2021 is a replenishment year for the GAFSP, we 
request that the U.S. support and appropriate $135 million 
toward a goal of $675 million over 5 years. Thank you so much.
    [The prepared statement of Ms. Amerasinghe follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Thank you .

                OPENING STATEMENT BY MR. O'BRIEN

    Mr. O'Brien. Chairwoman Lowey, Ranking Member Rogers, 
Congresswoman Lee, my name is Doug O'Brien. I am the president 
and CEO of the National Cooperative Business Association CLUSA 
International. We are the apex trade association for 
cooperative businesses here in the United States, and we also 
do significant international development work and have for 
nearly 60 years. We use international cooperative principles to 
empower people in developing regions. We request $17 million 
dollars for USAID's Cooperative Development Program for fiscal 
year 2021, and urge the committee to appropriate no less than 
$57.4 billion dollars for international affairs and related 
activities.
    As you know, cooperatives are businesses that are owned, 
controlled, and benefit those who use the business. 
Approximately 1 in 3 Americans are a member of at least one 
cooperative, ranging from small community-based to 
multibillion-dollar businesses. As an international development 
organization, NCBA CLUSA uses the cooperative principles to 
provide technical assistance, education, business development 
training, training that empowers people at the grassroots level 
by creating economic opportunity, promoting trade, and building 
more stable economies to tackle pressing issues that would be 
impossible for a single individual to address effectively. 
Cooperatives also provide individuals the tools to build 
democratic institutions in their communities.
    The Cooperative Development Program, the projects they are 
in, have been extremely successful, and by their very nature, 
these cooperatives stay in business long after that project 
concludes. NCBA CLUSA was a critical partner to USDA in the 
founding of CDP, and remains an enthusiastic implementer of the 
program, providing legal and regulatory technical assistance, 
business support, and governance strategies to cooperative 
businesses.
    For example, NCBA CLUSA has worked with local governments, 
cooperative development organizations, and private sector 
partners to identify ways to strengthen cooperatives through 
regulatory environment in places like Peru, Kenya, Tanzania, 
and Madagascar. For instance, by practicing one of the 
cooperative principles, cooperation among cooperatives, coop 
members leverage their strength to shift power back into the 
hands of farmers. They also collectively gather purchasing 
power so farmers and communities can better able and bring more 
income back to their families.
    CDP has a strong history of helping countries graduate from 
international development assistance. Cooperative membership 
has resulted in higher income levels, a greater sense of 
financial security, and an improved capacity to support 
families during a financial emergency. Moreover, cooperatives 
demonstrate greater gender inclusion and are more inclusive of 
all members' voices in business activities and decision making. 
CDP also provides people on the ground the fundamentals for 
individuals to build democratic institutions. With the support 
of the Cooperative Development Program, cooperative businesses 
continue to improve the economic mobility of millions of people 
across the world.
    Thank you for the opportunity to testify today, and thank 
you for your leadership on this subcommittee.
    [The prepared statement of Mr. O'Brien follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Thank you so much for completing this very, 
very important day. We appreciate your testimonies, and we look 
forward to continuing to work with you. And thank you to my 
outstanding ranking member and my colleague here.
    I must say in conclusion that this is one of my favorite 
days because you really get to interact and hear about some of 
the programs that many of us don't really understand in depth. 
So as you are closing out our hearings, I want to thank you and 
thank my colleague again, especially you here from beginning to 
end.
    And we stand adjourned. Thank you.
    [Material submitted for inclusion in the record follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

                           W I T N E S S E S

                              ----------                              
                                                                   Page

Akhoundova, Irada................................................   251

Albright, Alice..................................................    25

Allen, W. Ron....................................................    90

Amerasinghe, Niranjali...........................................   239

Arnold, David....................................................    98

Beckmann, David..................................................   218

Bilimoira, Natasha...............................................   162

Bourgault, Jeanne................................................   120

Boyle, Helen.....................................................   226

Browne, Anucha...................................................   136

Carter, Joanne, D.V.M............................................   261

Case, Hon. Ed....................................................    43

Castro, Hon. Joaquin.............................................    48

Chu, Hon. Judy...................................................    38

Collins, Chris...................................................   105

Cors, Tom........................................................   267

Costa, Hon. Jim..................................................    21

Cowal, Hon. Sally................................................   272

Cox, Hon. T.J....................................................    52

Crow, Paula......................................................   276

Espaillat, Hon. Adriano..........................................     2

Feinberg, Mark, M.D..............................................   281

Field, John......................................................   285

Foster, Hon. Bill................................................    53

Goodman, Allen E.................................................   288

Hailemichael, Filoma.............................................   233

Hannum, Jordie...................................................   210

Heiberg, Danielle................................................   143

Hill, Hon. J. French.............................................    26

Ignatius, Heather................................................   294

Kohr, Howard.....................................................   148

Kronenfeld, Mara.................................................   300

Kurose, Stephanie................................................   305

Lee, Hon. Sheila Jackson.........................................    31

Lyons, Charles...................................................   308

Mammadova, Sevinj................................................   314

Matthews, Anne L.................................................   320

McGovern, Hon. James P...........................................     9

McQueen, Mary C..................................................   326

Nishi, Jaime Bay.................................................   184

O'Brien, Doug....................................................   244

O'Brien, Kate....................................................    84

O'Keefe, William.................................................   197

Owubah, Charles E................................................   332

Pace, Loyce......................................................   335

Pallone, Hon. Frank P. Jr........................................    61

Patton, David....................................................   338

Perry, Hon. Scott................................................    64

Rand, Dafna......................................................   204

Rigg, Jennifer...................................................   343

Roehm, Scott.....................................................   347

Rosenhauer, Joan.................................................   112

Rubin, Hon. Eric.................................................   343

Savoy, Conor.....................................................   175

Schiff, Hon. Adam................................................    56

Schrayer, Liz....................................................   156

Sherman, Hon. Brad...............................................    66

Soderstrom, Stan.................................................   128

Spanberger, Hon. Abigail.........................................    15

Speier, Hon. Jackie..............................................    71

Unger, Noam......................................................   358

Wagner, Hon. Ann.................................................    76

Wall, Kate.......................................................   180

West, Dan........................................................   192

Whatley, Chris...................................................   364

Williams, Faith..................................................   368

Yerimyan, Tereza.................................................   373

Yoho, Hon. Ted...................................................    78

Young, Jesse.....................................................   170

Zachritz, Robert.................................................   378

Zherka, Ilir.....................................................   384



                                  <all>
</pre></body></html>
